No.
IN THE SUPREME COURT OF THE UNITED
STATES
October Term,
In RE: Dr. Lakshmi Arunachalam, Petitioner
Dr. Lakshmi Arunachalam,
Petitioner
On Petition for a Writ of Mandamus to the
United States Court of Appeals
For the Federal Circuit
Case No. 20-1493
EMERGENCY PETITION FOR
WRIT OF MANDAMUS
APPENDICES la, 4a, 5a
Dr. Lakshmi Arunachalam
Self-Represented Petitioner
222 Stanford Avenue
Menlo Park, CA 94025
(650) 690-0995

February 3, 2021

App. la
Federal Circuit Order ECF56
(12/18/20)

Case: 20-1493

Document: 56

Page: 1

Filed: 12/18/2020

United States Court of Appeals
For The Federal Circuit
717 Madison Place, N.W.
Washington, D.C. 20439
Peter R. Marksteiner
Clerk of Court

Clerk’s Office
202-275-8000

2020-1493- Arunachalam v. IBM
NOTICE OF SUBMISSION WITHOUT ORAL ARGUMENT
Your case will not be scheduled for oral argument. On February 1, 2021, the Clerk's Office
will submit your case to a three-judge panel. The panel will then decide your case based on
the argument in the briefs and the materials in the record of your case. This procedure is
called "submission on briefs."
Oral argument will not be held if the briefs and the record fully explain the facts and the
legal arguments in the case, and oral argument would not help the panel decide the case.
Fed. R. App. P. 34(a)(2). In argued and in submitted cases, the panel fully considers all
arguments raised by the parties, regardless of whether oral argument occurred.
Before Your Case is Submitted
You may file two other documents:
1. Memorandum in Lieu of Oral Argument
This Memorandum allows you to discuss any items the opposing party raised
in its brief. The Memorandum may not exceed five (5) pages and must be
hand- or type-written on 8 by 11-inch paper.
The court must recieve your Memorandum, should you choose to file
one, no later than 01/15/2021.
2. Motion Requesting Oral Argument
You may choose to file a motion explaining why oral argument would help the
court decide your case. If your motion for oral argument is granted, the
argument would be scheduled for hearing on the same date that your case is
scheduled to be submitted to the court. The Clerk's Office will notify you if
the panel allows argument in your case.
If you choose to file a Motion, please file one signed original motion
by 01/15/2021.

Case: 20-1493

Document: 56

Page: 2

Filed: 12/18/2020

When Your Case is Submitted
Your case will be one of several cases that will be submitted to the panel on
the submission date. Some of these cases will be argued and some will also be
submitted without argument.
Because your case is being submitted without oral argument, you do not need
to attend the court session. The panel will not discuss your case during the
court session. Neither you nor the opposing party will have an opportunity to
speak to the panel.
After Your Case is Submitted
The panel will review the briefs and other materials in the record of your
case. The panel of judges will then issue a written decision in your case. In
some cases, the panel issues a decision shortly after the submission date. In
other cases, the panel may take several months to issue its decision.
Once the panel issues its decision, the Clerk's Office will send you a copy. On
the day the panel issues its decision, you will also be able to view your
decision on the court's website after 11 a.m. (Eastern) at
http://www .cafe, uscourts. gov/.
While you may contact the Clerk's Office to see if the panel has issued its
decision in your case, the Clerk's Office does not know ahead of time when
the panel will decide your case. The Clerk's Office cannot influence how
quickly or when the panel decides your case.
Additional Assistance
If you have any questions about this notice or your case, please contact the
Clerk's Office at (202) 275-8035. Please continue to contact the Clerk's Office
for all communications to the court about your case or other matters.
FOR THE COURT
December 18, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
By: J. Bayles, Deputy Clerk

App. 4a:
Federal Circuit Order ECF55
(11/30/20)

Case: 20-1493

Document: 55

Page: 1

Filed: 11/30/2020

NOTE: This order is nonprecedential.

Unite!) States! Court of Appeals
for tlje Jfeberal Circuit
LAKSHMI ARUNACHALAM,
Plaintiff-Appellant
v.
INTERNATIONAL BUSINESS MACHINES
CORPORATION, SAP AMERICA, INC., J.P.
MORGAN CHASE & CO.,
Defendants-Appellees
DOES 1-100,
Defendant
2020-1493
Appeal from the United States District Court for the
District of Delaware in No. l:16-cv-00281-RGA, Judge
Richard G. Andrews.
Per Curiam.
ORDER
Having considered Dr. Lakshmi Arunachalam’s re­
sponse to the court’s October 14, 2020 show cause order,
the court now imposes filing restrictions.

Case: 20-1493

2

Document: 55

Page: 2

Filed: 11/30/2020

ARUNACHALAM v. IBM

Dr. Arunachalam has an established pattern of vexa­
tious behavior in this and other courts. See, e.g., In re Aru­
nachalam, No. 2020-136 (Fed. Cir. Aug. 21, 2020) (denying
Dr. Arunachalam leave to proceed in forma pauperis be­
cause her petition for a writ of mandamus was largely at­
tacking previously closed cases and raising arguments that
this court had already rejected in prior appeals), ECF
No. 12; see also Arunachalam v. Wells Fargo Bank, N.A.,
No. 19-8671, _ U.S. _, 2020 WL 5883799 (Oct. 5, 2020)
(“As the petitioner has repeatedly abused this Court’s pro­
cess, the Clerk is directed not to accept any further petition
in noncriminal matters from petitioner unless the [re­
quired] docketing fee ... is paid and the petition is submit­
ted in compliance with [Supreme Court] Rule 33.1.”
(citation omitted)). This includes numerous appeals and
motions seeking to relitigate issues she already lost and
motions seeking recusal or otherwise attacking the author­
ity of this court’s judges with no valid basis.
As a result of her vexatious and harassing behavior,
this court in June 2019 warned Dr. Arunachalam, after she
filed a motion asking “all Federal Circuit Judges” and “all
attorneys of record in th[e] case to provide a certified copy
of their Oaths of Office with Bond and Insurance infor­
mation, Anti-Corruption Statement and Foreign-Registra­
tion Statement,” that “future meritless motions will result
in sanctions.” Arunachalam v. Presidio Bank, No. 20191223, slip op. at 2 (Fed. Cir. June 27, 2019), ECF No. 26.
Despite that warning, Dr. Arunachalam continued filing
frivolous motions in her appeals, including again moving in
the above-captioned appeal to “prove jurisdiction, by
providing . . . oaths of office and other required State­
ments,” ECF No. 41 at 8; see also ECF Nos. 43, 44, 48, and
accusing court staff of committing crimes against her, ECF
Nos. 42-45, 48.
Dr. Arunachalam’s response confirms the need for ex­
traordinary action here. She justifies ignoring our warn­
ings with the same frivolous argument that the judges of

Case: 20-1493

Document: 55

Page: 3

Filed: 11/30/2020

ARUNACHALAM V. IBM

this court breached their oaths of office in failing to follow
the Constitution when they rejected her contention in prior
appeals that the Patent Office was barred from invalidat­
ing her patents based on the Contracts Clause and Fletcher
v. Peck, 10 U.S. (6 Cranch) 87 (1810). She baselessly ac­
cuses judges and court employees of treason, obstruction of
justice, intimidation, destruction of evidence, conspiracy,
and other crimes. She falsely accuses the appellees of for­
gery. And she submits a series of 12 emails between her
and the court staff purporting to show “evidence of hate
crimes” against her, which, if anything, demonstrate that
Dr. Arunachalam repeatedly and baselessly criticized our
clerk’s office employees, made unreasonable demands, and
irrationally refused to accept that the court was unable to
successfully run her credit cards to pay the docketing fee
due to an issue with the credit cards she provided.
Dr. Arunachalam’s history of filing repetitive motions
and pleadings, raising frivolous arguments, harassing the
court’s staff and judges, and not following the court’s rules
and directives constitutes an abuse of the judicial process.
Mindful that court filing injunctions are strong medicine,
we conclude that the appropriate action here is to impose
on Dr. Arunachalam a leave of court requirement with re­
spect to all future filings with the exceptions of merits
briefs in direct appeals, motions for extensions of time to
file such briefs, and motions for leave to proceed in forma
pauperis to waive the filing fee. We further conclude that,
given her conduct during the course of litigation in this
court, Dr. Arunachalam should not be allowed the privilege
to electronically file in this court or to communicate with
the Clerk’s Office by email. This filing restriction does not,
as Dr. Arunachalam contends, “bar the courthouse door to
[Dr. Arunachalam] but, rather, allows [her] meaningful ac­
cess while preventing repetitive or frivolous litigation.” In
re Chapman, 328 F.3d 903, 905 (7th Cir. 2003).
Accordingly,

3

Case: 20-1493

Document: 55

Page: 4

Filed: 11/30/2020

ARIJNACHALAM V. IBM

4

It Is Ordered That:
Except for merits briefs in her direct appeals, motions
for extensions of time to file such briefs, and motions for
leave to proceed in forma pauperis, the Clerk of this court
is directed not to docket any further papers by or on behalf
of Dr. Arunachalam unless her filing is accompanied by a
motion for leave to file and the court grants such motion.
The motion must be captioned “Motion Pursuant to Court
Order Seeking Leave to File” and must certify that the
grounds on which she relies for the relief she seeks have
never before been rejected on the merits by this court. Fail­
ure to comply strictly with the terms of this injunction will
be sufficient grounds for denying leave to file.
Dr. Arunachalam is directed to communicate with the
Clerk’s Office and the court only by paper filings and cor­
respondence. To that end, the Clerk of Court is directed to
take necessary and appropriate action to restrict Dr. Aru­
nachalam from participating in electronic filing or com­
municating with the Clerk’s Office by email or telephone.
Consistent with the prefiling requirements of this Order,
the Clerk’s Office is directed to accept and to process only
filings and papers from Dr. Arunachalam submitted by
mail through the U.S. Postal Service, by third-party com­
mercial carrier, or by deposit in the court’s drop-box. Ab­
sent further leave of court, Dr. Arunachalam may also not
conduct in-person business in the Clerk’s Office except for
a staff member retrieving a paper document from her in
the lobby of the courthouse at such time as the court reo­
pens to the public.

For the Court
November 30. 2020
Date

s32

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

App. 5a:
Docketed version of Petitioner
Dr. Lakshmi Arunachalam’s Memorandum
In Lieu of Oral Argument
(1.13.21)

RECEIVED
JAN 13 2021
2020- 1493

United States Court of Appeals
For The Federal Circuit

In The

UNITED STATES COURT OF APPEALS
For The Federal Circuit
Dr. Lakshmi Arunachalam,
a woman,
v.
INTERNATIONAL BUSINESS MACHINES CORPORATION,
SAP AMERICA, INC.,
JPMORGAN CHASE & CO.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. l:16-cv-281-RGA. Judge Richard G. Andrews
Dr. Lakshmi Arunachalam’s MEMORANDUM OF LAW, AS PER
COURT’S VOID ORDER ECF56 THAT GRANTED LEAVE TO FILE.
January 11,2021

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Ave, Menlo Park, CA 94025
Tel: 650.690.0995; Laks22002@yahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

1

I, Dr. Lakshmi Arunachalam, a 73-year old disabled ethnic female of color, thought
leader and inventor of a dozen patents on the Internet of Things - Web Adds
Displayed on a Web browser, with a priority date of 11/13/95, hereby file this
Memorandum of Law. The District Court's Orders are void bv operation oflaw.
DISTRICT COURT CLERK'S AND JUDGE'S LAWLESS PROCESS DISORDER. WITHOUT JURISDICTION.
AIDING
AND
ABETTING
RICO
WITH
DEFENDANTS:
muTRUST. IN

to the prejudice of good order, discipline and justice, of a nature to bring discredit
upon the judiciary and United States, and crimes and offenses which violate federal
and state laws and the Constitution. Judge Andrews acted as Attorney to Defendants,
Ordered them to not answer my Complaint, to Default, dismissed my case and
Ordered them to untimely move for attorney's fees after 2 years after appeal at the
Supreme Court and awarded them $148k. I am “the prevailing party.” not
Defendants, even bv the District Court's procedurallv foul process. This Court
must take Judicial Notice that on 11/19/2019. it denied Presidio Bank’s Motion for
sanctions and attorneys' fees. ECF 36 in mv Appeal in Case 19-1223. Exhibit A.
DISTRICT COURT FAILED TO ENTER DEFAULT AND DEFAULT JUDGMENT IN MY FAVOR. UPON
REQUEST, WHEN THE DEFENDANTS DID NOT RLE AN ANSWER TO MY COMPLAINT. AS ORDERED BY
JUDGE ANDREWS NOTTO ANSWER THE COMPLAINT
1 WON THE CASE

Defendants default. Clerk refuses to enter default and default judgment. Judge
dismisses the case without a hearing. After my appeal at the Federal Circuit and the
Supreme Court were complete, Judge Andrews Orders Defendants, Exhibit B, to
untimely move for attorneys’ fees and grants them S148K for notfiling an answer
2

to the complaint and no injury to Defendants, two years after the Supreme Court
ruled. Their lack of response is a Default after being out on notice. Their Silence
“comprises their stipulation and confession jointly and severally to acceptance of all
statements, terms, declarations, denials and provisions herein as facts, the whole
truth, correct and folly binding on all parties.” “Upon Default, all matters are settled
res judicata and stare decisis.” “Default comprises an estoppel of all actions.
administrative and judicial” by courts, PTAB and Defendants against me.
DISTRICT COURT JUDGE AND CLERK ABANDONED THEIR POST----- REFUSED TO PROVE
JURISDICTION UPON CHALLENGE.

Judge Andrews admitted he bought direct stock in Defendant JPMorgan Chase &
Co. in the Court docket, failed to recuse, breached his solemn oath, and refused to
enforce the Constitution. Upon challenge to prove jurisdiction after losing
jurisdiction in all of my cases, Judge Andrews failed to prove jurisdiction.
JUDGE ANDREWS’ RETALIATORY EX-ACTION AGAINST ME, MALICIOUSLY, WILLFULLY, KNOWINGLY
AND RECKLESSLY DEFAMED ME AS “FRIVOLOUS" AND “MAUCIOUS” WITHOUT AN IOTA OF
EVIDENCE. FOR 73-YEAR OLD, DISABLED INVENTOR FIGHTING FOR MY PROPERTY RIGHTS AND
CONSTITUTIONAL RIGHTS, FOR REQUESTING THEJUDGETO DO HIS MINISTERIAL DUTYTO ENFORCE
THE LAW OF THE CASE AND LAW OFTHE LAND AND TO CONSIDER PATENT PROSECUTION HISTORY
-----MATERIAL, INTRINSIC PRIMA
EVIDENCE THAT MY CLAIM TERMS ARE NOT INDEFINITE
AND THAT MY PATENT CLAIMS ARE NOT INVALID, AS PER STARE DECISIS SUPREME COURT
PRECEDENTS, IN ACCORD WITH THE CONSTITUTION:

in Festo Corp. v Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722 (2002);
Trustees of Dartmouth College v. Woodward, 17 U.S. 518 (1819); Grant v.
Raymond, 31 U.S. 218 (1832); U.S. v. American Bell Telephone Company, 167 U.S.
224 (1897); Fletcher v. Peck, 10 U.S. 87 (1810); Arunachalam v. Lyft, 19-8029,
3

voiding all Orders in aU of my Supreme Court cases, for want ofjurisdiction; Cooper
v. Aaron, 358 U.S. 1 (1958); Ableman v. Booth, 62 U.S. 524 (1859);
“no avenue of escape from the paramount authority of
the...Constitution...when ...exertion of...power... has overridden
private rights secured by that Constitution, the subject is necessarily
one for judicial inquiry...against...individuals charged with the
transgression;" Sterling v. Constantin, 287 U.S. 397 (1932);
and per Federal Circuit precedents in Kumar v. Ovonic Battery Co., Inc. And Energy
Conversion Devices, Inc., Fed. Cir. 02-1551,-1574,03-1091 (2003), 351 F.3d 1364,
1368, 69. (2004); Aqua Products Inc. v. Matal, 15-1177 (Fed. Cir.2017); Arthrex,
Inc. v. Smith & Nephew, Inc., No. 2018-2140, slip op.(Fed.Cir. 10/31/ 2019) applies
to: “All agency actions rendered by those [unconstitutionally appointed] APJs;”
Vimetx Inc. v. Cisco Systems and USPTO (intervenor) (Fed. Cir. 5/13/2020).
EXPERT OPINIONS OF STANFORD'S DR. MARKUS COVERT AND DR. JAY TENENBAUM IN RE­
EXAMINATIONS OF MY PATENTS PROVE I AM NOT "FRIVOLOUS” OR “MALICIOUS.”

See Exhibits C and D.
THE ONLY PEOPLE WHO HAVE BEEN “FRIVOLOUS” AND “MAUCIOUS” ARE THE ADJUDICATORS, AS
CHIEF JUSTICE MARSHALL DECLARED IN TRUSTEES OF DARTMOUTH COLLEGE V. WOODWARD
(1819):

Judge Andrews’/PTAB’s rescinding act has the effect of an ex post facto law and
forfeits mv estate “for a crime NOT committed bv” me. “but bv the Adjudicators”
bv their Orders which “unconstitutionally impaired” the contract with the inventor.
which, “as in a conveyance of land, the court found a contract that the grant should
not be revoked.” All court Orders in my cases violate the U.S. Constitution,
inconsistent with the “faithful execution of the solemn promise made by the United
4

States” with the inventor and constitute treason. See Exhibit E — Daniel Brune’s
Amicus Curiae Brief in Case 20-2196. Chief Justice Marshall declared that any acts
and Orders by the Judiciary that impair the obligation of the contract within the
meaning of the Constitution of the United States “are consequently
unconstitutional and void.” Chief Justice Marshall declared that war was actually
levied under such circumstances in U.S. v. Burr, 25 F. Cas. 55, 161 (CCD, Va. No.
14693). This entire Case revolves around the Judiciary avoiding enforcing
Dartmouth College, et al at all costs. WHY? — because enforcing it exposes the
entire Patent System, operating as a criminal enterprise, defrauding the public.
Courts dismissed my Cases for false reasons while Chief Justice Roberts admitted
by his recusal on 5/18/20 in 19-8029 that the facts and the law are on my side.
COURTS CANNOT DETERMINE THAT MY ACTION WAS "FRIVOLOUS, UNREASONABLE, OR WITHOUT
FOUNDATION."

Judge Andrews’ EXACTION was clearly in excess of his jurisdiction, to deprive me
of my federally protected rights — to be free from a conspiracy "to prevent, by force,
intimidation, or threat" my First Amendment rights to Petition the Government for
Grievance; and from deprivations "of equal protection of the laws, or of equal
privileges and immunities under the laws." The courts have not proven bad faith or
malice on my part nor that any particular claim is frivolous, nor can they. The District
Court’s procedural irregularities and falsely accusing me as “vexatious” for
defending the Constitution and Andrews’ cruel and unusually punitive intentions are
5

well documented. The District Court denying me a fair hearing to cover up its own
culpability and lawlessness — bespeaks of a court biased against me, and not doing
its duty to enforce the Law of the Land. Judge Andrews’ outrage at me reveals “a
‘deep-seated... antagonism that would make fair judgment impossible.’ Liteky, 510
U.S. at 555.” Judge Andrews’ Order of a false collateral estoppel without
considering Patent Prosecution History is not legally sound and is not precedent.
Cherrington v. Erie Ins, Property and Cas. Co., 75 S.E. 2d. 508,513 (W. Va, 2013).
SPECIAL CIRCUMSTANCES MAKE AN AWARD UNJUST. JUDGE ANDREWS DID NOT FIND ACTUAL
INJURY.

Judge Andrews did not allow me a fair hearing or fair procedural or substantive due
process. Courts made it unreasonably burdensome, downright dangerous, and
expensive for me to have access to the Court on the question of due process itself.
Defendants and the Government are unjustly enriched by trillions of dollars.
DEFENDANTS PLAGIARIZED EACH OTHER. LODESTAR APPROACH CALCULATING ATTORNEYS FEES
WAS APPLIED THREETIMES, INSTEAD OF ZERO. THEY HAD ZERO DAMAGES. NO INJURY. FEES ARE
LIMITED TO LESSER OF 20% of DAMAGES AWARDED OR $4000. FEES ARE ZERO, BECAUSE
DAMAGES WERE ZERO. FEE AWARDS ARE TO BE REASONABLE...DESIGNED TO PREVENT ANY SUCH
"WINDFALL."

I was injured by trillions of dollars in financial damages and personal injury to my
health. I am the aggrieved party, entitled to damages, attorneys’ fees, not the
Defendants.
January 11,2021

Respectfully submitted,

222 Stanford Ave, Menlo Park, CA 94025
650.690.0995; laks22002@vahoo.com
Dr. Lakshmi Arunachalam, Appellant
6

LIST OF EXHIBITS
Exhibit A: Federal Circuit’s Order ECF36 on 11/19/2019 that denied Presidio
Bank’s Motion for sanctions and attorneys’ fees in my Appeal in Case 19-1223.
1/19/2019 r
1

_36_

5 pg, 89.12 KB

ORDER filed. The motion to file an extended reply [35] is granted. The motions
[28], [643874-21 to recuse judges and Presidio Bank's request for sanctions
are denied. Service as of this date by the Clerk of Court. [650536] [19-1223,
19-1794] [JAB][Entered: 11/19/2019 01:21 PM]

Exhibit B: Judge Andrews orders Defendants to untimely move for attorneys’ fees
in my District Court Case 16-281-RGA (D.Del.) in D.1.126 on 6/29/18 at p. 3, after
the case was closed and appealed:
“...my earlier order deferring any consideration of ...requests
(see D.1.89 of 3/21/17) when I stated they could renew them “by
separate motion.” No separate motions have been filed. If
separate motions are filed, and a part or all of the relief this
motion seeks is the party’s attorney’s fees, the moving party
should include sworn submissions sufficient to determine the
amount of attorney’s fees, should I decide to grant the motion.”
(emphasis added).
Exhibit C: Dr. Markus Covert’s expert opinion in Dr. Lakshmi Arunachalam’s re­
examination of her patents.
Exhibit D: Dr. Jay Tenenbaum’s expert opinion in Dr. Lakshmi Arunachalam’s re­
examination of her patent-in-suit.
Exhibit E: Daniel Brune’s Amicus Curiae Brief filed in Dr. Lakshmi Arunachalam’s
CAFC Case 20-2196.
DECLARATION OF Dr. Lakshmi Arunachalam IN SUPPORT OF THE
AFOREMENTIONED MEMORANDUM OF LAW
I, Dr. Lakshmi Arunachalam, declare:
I am the inventor and assignee of the U.S. Patent No. 7,340,506/US 7,340,506
Cl that re-emerged successfully from an inter-partes re-examination by the United
States Patent and Trademark Office initiated by Microsoft, and also of the prior
7

patents-in-suit in the JPMorgan case l:12-cv-282 (D.Del.), all of which derive their
priority date from my provisional patent application with S/N 60/006,634 filed
November 13,1995.1 reside at 222 Stanford Avenue, Menlo Park, CA 94025.1 am
pro se Plaintiff-Appellant in the above-captioned action. I make this declaration
based on personal knowledge and, if called upon to do so, could testify competently
thereto. I declare that:
1. Attached as Exhibit A is a true and correct copy of Federal Circuit’s Order
ECF36 on 11/19/2019 that denied Presidio Bank’s Motion for sanctions and
attorneys’ fees in my Appeal in Case 19-1223.
1/19/2019 r
1

_36_

5pg, 89.12 KB

ORDER filed. The motion to file an extended reply [35] is granted. The motions
[28], f643874-21 to recuse judges and Presidio Bank’s request for sanctions
are denied. Service as of this date by the Clerk of Court. [650536] [19-1223,
19-1794] [JABHEntered: 11/19/2019 01:21 PM]

2. Attached as Exhibit B is Judge Andrews’ Order in which he orders
Defendants to untimely move for attorneys’ fees in my District Court Case
16-281-RGA (D.Del.) in D.1.126 on 6/29/18 at p. 3, after the case was closed
and appealed:
“...my earlier order deferring any consideration of ...requests
(see D.1.89 of 3/21/17) when I stated they could renew them “by
separate motion.” No separate motions have been filed. If
separate motions are filed, and a part or all of the relief this
motion seeks is the party’s attorney’s fees, the moving party
should include sworn submissions sufficient to determine the
amount of attorney’s fees, should I decide to grant the motion.*'
(emphasis added).
3. Attached as Exhibit C is a true and correct copy of Dr. Markus Covert’s
expert opinion in Dr. Lakshmi Arunachalam’s re-examination of her patents.
4. Attached as Exhibit D is a true and correct copy of Dr. Jay Tenenbaum’s
expert opinion in Dr. Lakshmi Arunachalam’s re-examination of her patentin-suit.
5. Attached as Exhibit E is a true and correct copy of Daniel Brune’s Amicus
Curiae Brief filed in Dr. Lakshmi Arunachalam’s CAFC Case 20-136.
6. Judge Andrews Ordered the Defendants to not answer my Complaint, to
Default, dismissed my case and Ordered Defendants to untimely move for
8

attorney’s fees after 2 years and awarded them $148k. I am “the prevailing
party.” not Defendants, even bv the District Court’s procedurallv foul process.
7. On 11/19/2019. this Court denied Appellee Presidio Bank’s Motion for
sanctions and attorneys’ fees. D.I. 36 in mv Appeal in Case 19-1223.
8. The judge and clerk in the District Court failed to enter default and default
judgment in mv favor, upon my request, when the Defendants did not file an
answer to mv complaint, as ordered by Judge Andrews not to answer the
complaint— I already won the case.
9. Defendants untimely moved for attorneys’ fees, at the Judge’s
Solicitation/Order to do so, and Judge Andrews granted $148K in attorneys’
fees for no injury to Defendants, two years after my Petition for Writ of
Certiorari had been denied by the U.S. Supreme Court.
10.Judge Andrews admitted he bought direct stock in Defendant JPMorgan
Chase & Co. and lost jurisdiction in any and all of my cases, and failed to
recuse. He breached his solemn oath and refused to enforce the Constitution.
Upon challenge to prove jurisdiction after losing jurisdiction, Judge Andrews
refused to do so.
11.Judge Andrews maliciously, willfully, knowingly and recklessly defamed me
as “frivolous” and “malicious” without an iota of evidence, for 73-year old,
disabled me, the inventor, fighting for my property rights and constitutional
rights, for requesting the Judge to do his ministerial duty to enforce the Law
of the Case and Law of the Land and to consider Patent Prosecution History
— material, intrinsic prima facie evidence that my claim terms are not
indefinite and that my patent claims are not invalid, as per stare decisis
Supreme Court precedents, in accord with the Constitution, in Festo Corp. v
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722 (2002); Fletcher v.
Peck, 10 U.S. 87 (1810); Trustees of Dartmouth College v. Woodward, 17
U.S. 518 (1819); Grant v. Raymond, 31 U.S. 218 (1832); U.S. v. American
Bell Telephone Company, 167 U.S. 224 (1897); Arunachalam v. Lyft, 198029, in which Chief Justice Roberts recused for want ofjurisdiction, voiding
all his Orders in all of my cases; Cooper v. Aaron, 358 U.S. 1 (1958); Ableman
v. Booth, 62 U.S. 524 (1859); Sterling v. Constantin, 287 U.S. 397 (1932) on
Government officials non-exempt from absolute judicial immunity: and the
9

Federal Circuit precedents in Kumar v. Ovonic Battery Co., Inc. And Energy
Conversion Devices, Inc., Fed. Cir. 02-1551, -1574,03-1091 (2003), 351 F.3d
1364,1368,69. (2004); Aqua Products Inc. v. Matal, Fed Cir. Case 15-1177,
October 4, 2017; Arthrex, Inc. v. Smith & Nephew, Inc., No. 2018-2140, slip
op. (Fed. Cir. Oct. 31, 2019); Virnetx Inc. v. Cisco Systems and USPTO
(intervenor) (Fed. Cir. 5/13/2020). Arthrex applies to: “All agency
actions rendered by those [unconstitutionally appointed] APJs.”
12.Chief Justice Marshall adjudicated in Trustees of Dartmouth College v.
Woodward (1819) that the only people who have been “frivolous” and
“malicious” are the Adjudicators, and that “this rescinding act has the effect
of an ex postfacto law and forfeits the estate of’ Dr. Arunachalam “for a crime
NOT committed by” me, “but by the Adjudicators” by their Orders which
“unconstitutionally impaired” the contract with me, the inventor, which, “as
in a conveyance of land, the court found a contract that the grant should not
be revoked.”
13.District and Appellate Court Orders violated the U.S. Constitution,
inconsistent with the “faithful execution of the solemn promise made by the
United States” with the inventor and constitute treason. J. Marshall declared
‘Crime by the Adjudicators’ in Fletcher. Chief Justice Marshall declared that
any acts and Orders by the Judiciary that impair the obligation of the contract
within the meaning of the Constitution of the United States “are consequently
unconstitutional and void.”
14.This entire Case revolves around the Judiciary avoiding enforcing Fletcher,
at all costs.
15. WHY? The fact of the matter — the State of the Union — is: there is no
middle ground. The Court is not fooling anyone. The three Branches of
Government conceitedly share a common objective — to remain silent as
fraud, willfully and wantonly avoiding enforcing Dartmouth College and
Governing Supreme Court Precedents. Why has the Judiciary not enforced
Dartmouth College and Governing Supreme Court Precedents? They know
why — because enforcing Dartmouth College et al exposes the entire Patent
System, operating as a criminal enterprise, defrauding the public.
16.1 have been forced to state the obvious. Courts do not like it. So Courts
dismissed my Cases for false reasons while Chief Justice Roberts admitted by
his recusal on 5/18/20 that the facts and the law are on my side.
10

17, No court can determine that mv action was “frivolous, unreasonable, or
without foundation." See attached Exhibits C, D, and E. To the contrary,
Judge Andrews’ retaliatory ex-action was clearly in excess of such officer's
jurisdiction, to deprive me of my federally protected rights; my right to be free
from a conspiracy "to prevent, by force, intimidation, or threat" my First
Amendment rights to Petition the Government for Grievance; in any court of
the United States a right to be free from a conspiracy to obstruct justice; and
my protected right from deprivations "of equal protection of the laws, or of
equal privileges and immunities under the laws." The District Court has not
proven bad faith or malice on my part nor that any particular claim is
frivolous, nor can they, no can any court. The District Court’s procedural
irregularities and falsely accusing me as “vexatious” for defending the
Constitution and its cruel and unusually punitive intentions are well
documented. The District Court denying me a fair hearing to cover up its own
culpability and lawlessness — bespeaks of a court not only biased against me,
but not doing its duty to enforce the Law of the Land. The District Court’s
outrage at me does reveal “a ‘deep-seated... antagonism that would make fair
judgment impossible.’ Liteky, 510 U.S. at 555.”
18.J. Marshall declared: “The law of this case is the law of all.” J. Marshall
declared in Dartmouth College v. Woodward (1819) that:
“Surely, in this transaction, every ingredient of a complete and
legitimate contract is to be found. The points for consideration
are, 1. Is this contract protected by the Constitution of the United
States? 2. Is it impaired by the acts” of the Court?”
19.Are my patent property rights being impaired by the District Court? The
answer is “yes” to both questions.
20.Like J. Marshall stated in Dartmouth College,
“Circumstances have not changed it. In reason, in justice, and in
law, it is now what was in 1769... The law of this case is the law
of all... The opinion of the Court, after mature deliberation, is
that this is a contract the obligation of which cannot be impaired
without violating the Constitution of the United States... It
results from this opinion that the acts of’ (emphasis added) the
Judiciary “are repugnant to the Constitution of the United States,
11

and that the judgment on this special verdict ought to have been
for the Petitioner.”
21. If a doubt could exist that a grant is a contract, the point was decided in
Fletcher. If, then, a grant be a contract within the meaning of the Constitution
of the United States, Chief Justice Marshall declared: “these principles and
authorities prove incontrovertibly that” a patent grant “is a contract.” And that
any acts and Orders by the Judiciary that impair the obligation of the patent
grant contract within the meaning of the Constitution of the United States “are
consequently unconstitutional and void.”
22.The District Court Orders violate the U.S. Constitution and constitute treason.
J. Marshall declared in Fletcher: ‘Crime by the Adjudicators.’
“It would be strange if a contract to convey was secured by the
Constitution, while an absolute conveyance remained
unprotected...This rescinding act” “would have the effect of an
ex postfacto law. It forfeits the estate of’ Petitioner “for a crime
not committed by” Petitioner, but by the Adjudicators by their
Orders which “unconstitutionally impaired” the patent grant
contract with Petitioner, which, “as in a conveyance of land, the
court found a contract that the grant should not be revoked.”
23.District Court Orders violate ALP VOL. 12. CONST. LAW, CH. VII, SEC.
1, §141. With respect to Fundamental. Substantive, and Due Process Itself:
“... denies a litigant due process entitlement to an honest, though
not learned tribunal; and if injured by the corruption or fraud of
the court is entitled to redress.” [ALP VOL. 12. CONST. LAW,
CH. VII, SEC. 1, § 140];
“and final decisions upon the ultimate question of due process
cannot be conclusively codified to any non-judicial tribunal. Any
attempt to do this whether by direct denial of access to the courts
upon this question of due process by hindering access to the
courts or making resort to the courts upon it difficult, expensive,
hazardous, all alike violate the Constitutional provision.” [§141];
24.Defendant-Appellees offer no defense for their breach of solemn oaths of
office and not abiding by the Mandated Prohibition declared by Chief Justice
Marshall, obfuscating, with volumes of unnecessary information, irrelevant to
12

the case at hand, which is restricted to attorneys’ fees and/or sanctions, in an
attempt to drain the Public Trust Doctrine of its vitality by resorting to hair
splitting and misapplying procedural doctrine.
25.Stare Decisis Mandated Prohibition by the Supreme Court does not support
Appellees’ False Claim of injury/hardship.
26.The self-serving statements of Appellees cannot flatly govern a finding of
“hardship.” The community’s and public interests are more accurately
enunciated by its elected officials and by Chief Justice Marshall, than by
Appellees and their lawyers.
21.Stare decisis means “to adhere to precedents, and not to unsettle things which
are established.” Black’s Law Dictionary (5th Edition, 1979). Judge
Andrews’ Erroneous and Fraudulent Orders do not adhere to precedents and
cannot unsettle things that have been established by the Supreme Court of the
United States by Chief Justice Marshall.
28.“Courts of law will part ways with precedent that is not legally sound ....”
Cherrington v. Erie Ins. Property and Cas. Co., 75 S.E. 2d. 508,513 (W. Va,
2013).
29.Judge Andrews’ Order of a false collateral estoppel without considering
Patent Prosecution History is not legally sound and is not precedent.
30.Appellees do not claim changed facts or circumstances to avoid preclusion
based on prior judgment nor create or claim a particular exception, taking this
case out of the prohibition contained in the Constitution.
31.The relevant facts or circumstances have not changed such that the prior
Fletcher decision should dictate the result in the present case.
32.Chief Justice Marshall declared in Dartmouth College “the obligation of
contract.”
“Circumstances have not changed it. In reason, in justice, and in
law, it is now what was in 1769...It is then a contract within the
letter of the Constitution, and within its spirit
also,... unless... create a particular exception, taking this case out
of the prohibition contained in the Constitution... The law of this
case is the law of all...is applicable to contracts of every
description ... there is nothing for the courts to act
upon...The opinion of the Court, after mature deliberation, is
that this is a contract the obligation of which cannot be
13

impaired without violating the Constitution of the United
States... It results from this opinion that the acts of’ (emphasis
added) Judge Andrews “are repugnant to the Constitution of the
United States, and that the judgment on this special verdict ought
to have been for the plaintiffs.”
33.Special circumstances make an award unjust. Judge Andrews did not find
actual injury.
34.Attomeys’ fees must not be awarded because of the commissions of
procedural foulness— Judge Andrews acted as their attorney, Solicited and
Ordered Defendants on 6/29/18 to file a Motion for Attorney’s fees, whereas
on 5/22/18, he entered final judgment on all claims and closed the case.
Defendants’ failure to apply for attorneys' fees prior to that date precluded the
Defendants from applying for fees after entry of final judgment. I appealed on
6/22/18 to the Federal Circuit, Case 18-2105. Deadline for filing for
attorney’s fees was 14 days (6/5/2018) from Judgment. There was no good
cause for Judge Andrews to extend the time for filing a motion for attorney's
fees in the absence of a stipulation. Judge Andrews granted them Attorney’s
Fees on 1/27/20, 20 months after case was closed 5/22/18. and appealed
6/22/18.
35.Time for motion:
“A notice of motion to claim attorney's fees for services up to
and including the rendition ofjudgment in the trial court...must
be served and filed within the time for filing a notice of appeal.”
FRCP Rule 54: Defendants failed to: file a motion for attorneys’ fees within
14 days after the entry ofjudgment; specify the judgment and the statute, rule,
or other grounds entitling the movant to the award; provide a fair estimate of
the amount sought; disclose the terms of any contract about fees for services
for which the claim was made. Dr. Arunachalam arguing the Constitution and
Fletcher are not unreasonable nor vexatious and does not meet the Exceptions
clause to award sanctions under 28 U.S.C. §1927.
36.Judge Andrews dismissed and closed the Case on 5/22/18 (D.I. 117). On
6/3/18,1 filed a Motion to Alter or Amend a Judgment pursuant to Rule 59 (e)
and Motion for Relief from a Judgment or Order pursuant to 60(b) and 60(d).
I filed a NOA on 6/22/18, Federal Circuit Case 18-2105. Judge Andrews
14

Solicited and Ordered the Defendants to seek attorney’s fees in D.I. 126 on
6/29/18 at p. 3, after the case was closed and appealed:
“...my earlier order deferring any consideration of ...requests
(see D.1.89 of 3/21/17) when I stated they could renew them “by
separate motion.” No separate motions have been filed. If
separate motions are filed, and a part or all of the relief this
motion seeks is the party’s attorney’s fees, the moving party
should include swom submissions sufficient to determine the
amount of attorney’s fees, should I decide to grant the motion."
(emphasis added).
37.0n 1/28/19, the Federal Circuit affirmed the District Court’s Judgment and
issued the Mandate on 3/21/19. Almost a year later, in response to Judge
Andrews’ Solicitation to file a Motion for Attorney’s Fees, more than 30 days
after the Mandate, IBM filed its Motion for Attorney’s Fees, D.I. 183, on
4/26/19. JPMorgan filed its Motion for Attorney’s Fees, D.I. 171, on 4/17/19.
On 11/12/2019, D.I. 202, Judge Andrews granted the attorney’s fees to all 3
Defendants. On 11/20/19,1 filed a Motion (D.I. 204) for the Court to Vacate
its Unconstitutional Order (D.I. 202), and to enter a new and different Order.
The Court denied it on 1/27/20 in D.I. 205. I filed a NOA on 2/13/20, Federal
Circuit Case 20-1493, appealing the Unconstitutional Order granting
Attorney’s fees and sanctions in favor of Defendants. I filed an Opening
Appeal Brief on 5/4/20, solely appealing the Unconstitutional Orders granting
Attorney’s fees and sanctions. Nowhere did I waive any challenge to the Fee
Awards nor waive any argument that the District Court abused its discretion
in awarding attorney’s fees, as Defendants falsely claim.
38. Judge Andrews himself admitted in the Court docket in my case 12-282-RGA
(D.Del.) that he bought direct stock in JPMorgan Chase & Co. and lost subject
matter jurisdiction in all of my cases. I had named Judge Andrews as a
Defendant in the District Court Case 16-281, as he is associated-in-fact with
the Defendants in the criminal enterprise. He failed to recuse, despite lacking
jurisdiction and failed to prove jurisdiction. Judge Stark, a co-conspirator,
ruled Erroneously and Fraudulently that Judge Andrews is not a Defendant in
Case 16-281. All of the Orders in case 16-281 -RGA (D.Del.) are void for want
of jurisdiction. Judge Andrews Erroneously and Fraudulently ruled in 16-281
15

"i

J
i

i

>

t

(

i
I

T

/

that I may not file any amendments without his permission, violating my
rights under the First Amendment.
39.The District Court awarding Attorney’s fees to Defendants is contrary to the
American rule. A fee award under the bad faith exception requires subjective
bad faith—"some proof of malice entirely apart from inferences arising from
the possible frivolous character of a particular claim." Copeland v. Martinez,
603 F.2d 981, 991 (D.C. Cir. 1979), cert, denied, 444 U.S. 1044 (1980).
Defendants have not proven bad faith or malice on my part nor that any
particular claim is frivolous, nor can they.
"We hold that the requisite bad faith... may not be based on a
parly’s conduct forming the basis for that substantive claim."
Sanchez v. Rowe, 870 F.2d 291,295 (5th Cir. 1989).
“...not compensable because they represent the cost of
maintaining open access to an equitable system of justice."
Shimman v. International Union of Operating Engineers, 469
U.S. 1215(1985).
40.Putting the Defendants, Judges and PTAB on notice of their duty to enforce
the Law of the Land— the Mandated Prohibition may not be construed as bad
faith in the conduct of the litigation or in the act underlying the substantive
claim.
41.Defendant-Appellees have not proven that my action is meritless, groundless
or without foundation. The fact that a plaintiff may ultimately lose her case is
not in itself a sufficient justification for the assessment of fees.
“...Fifth Circuit has held that the ...'s conduct, be it negligent or
intentional, in good faith or bad, is irrelevant to an award of
attorneys' fees.” Brown v. Culpepper, 559 F.2d 274,278 (5th Cir.
1977).
42.Defendant-Appellees are not the “prevailing party,” as they did not obtain a
favorable “final judgment following a full trial on the merits.” They defaulted.
43 .Nor did they establish their entitlement to some relief on the merits of their
claims nor did they achieve any victories on the merits. Judge Andrews did
not allow me a fair hearing or fair procedural or substantive due process. The
fee award is unjust.
16

. .Being granted the right to a new trial was not a victory on the
merits; nor were any favorable procedural or evidentiary rulings
victories on the merits...” Bradley v. Richmond School Board,
416 U.S. 696, 723 (1974).
44. Defendant-Appellees did not succeed on any significant issue in litigation
which achieves some of the benefit the parties sought in the suit. DefendantAppellees did not prevail on a “significant issue” in order to be eligible for a
fee award, nor did they prevail on the "centrar issue in the litigation. They
failed to prove any essential element of their claim for monetary relief. The
Supreme Court has held that the only reasonable fee is no fee at all. They have
not proven any actual injury they incurred. The District Court failed to
address the significant issue and central issue in litigation in mv cases.
Consequently. Defendant-Appellees are entitled to no award of attorneys1
fees.
. .the hours spent on the unsuccessful claim should be excluded
in considering the amount of a reasonable fee.” Hensley v.
Eckerhart, 461 U.S. 424,433 (1983).
“.. .although a party must prevail on a "significant" issue in order
to be eligible for a fee award, it need not prevail on the "central"
issue in the litigation.” Texas State Teachers Association v.
Garland Independent School District, 489 U.S. 782, 791 (1989).
"[T]he degree of the plaintiffs success in relation to the other
goals of the lawsuit is a factor critical to the determination of the
size of a reasonable fee, not to eligibility for a fee award at all."
Id. at 790.
“...a plaintiff who is awarded only nominal damages—in this
case one dollar when...sought $ 17 million—is a prevailing party
for attorneys' fees purposes.” Farrar v. Hobby, 506 U.S. 103
(1992). ‘Nevertheless, "[wjhen a plaintiff recovers only nominal
damages because of his failure to prove an essential element of
his claim for monetary relief..., the only reasonable fee is usually
no fee at all." Id. at 115.
‘In this case, ...but cannot prove actual injury." Id. at 112.
Consequently, although he was a "prevailing party," he was
entitled to no award of attorneys' fees.’
17

45.Defendant-Appellees plagiarized each other. Lodestar approach calculating
attorney’s fees was applied three times, instead of zero. They had no damages.
They had no injury. There was zero damages or benefits awards to DefendantAppellees. Fees are limited to lesser of 20% of damages awarded or $4000.
Fees are zero, because damages were zero. Fee awards are to be
reasonable...designed to prevent any such "windfall."
46.1 was injured by trillions of dollars in financial damages and personal injury
to my health. Defendant-Appellees suffered no injury. I was injured in my
business and property by reason of Defendant-Appellees’ violation of, or
combination or conspiracy to violate the Unfair Competition Act, 15 U.S.C.
§ 72.1 am the aggrieved party, entitled to damages, attorneys’ fees, not the
Defendant-Appellees.
47.The Supreme Court specifically held that:
“.. .the "novelty [and] complexity of the issues," "the special skill
and experience of counsel," the "quality of representation," and
the "results obtained" from the litigation are presumably fully
reflected in the lodestar amount and thus cannot serve as
independent bases for increasing the basic fee award.” Blum v.
Stenson, 465 U.S. 886, 898-900 (1984).
"In support of the American rule, ...since litigation is at best
uncertain, one should not be penalized for merely defending or
prosecuting a lawsuit...." Fleischmann v. Maier Brewing Co.,
386 U.S. 714, 718 (1967). "[T]he poor might be unjustly
discouraged from instituting actions to vindicate their rights if
the penalty for losing included the fees of their opponents'
counsel."
48.1n this case, damages incurred by Defendant-Appellees is zero. 20% of
damage of zero is zero, not $148K.
RULE 54.3. Award of Attorney's Fees, (a) ... Where a
judgment is not a final judgment on all claims,....
U.S.C. § 2412(d)(1)(B): A party seeking an award of fees., .shall,
within thirty days of final judgment in the action, submit to the
court an application for fees ...
18

28 U.S.C. §2678. Attorney fees; penalty: “No attorney shall
charge, demand, receive, or collect for services rendered, fees in
excess of 25 per centum of any judgment rendered pursuant to
section 1346(b) of this title.. .shall be fined not more than $2,000
or imprisoned not more than one year....’*
49.Defendant-Appellees incurred no injury. I was injured by the collective
nonfeasance of the courts, USPTO and legislature (A1A) and concerted
malfeasance by Judge Andrews and Defendant-Appellees:
50.1 am the victim of Defendant-Appellees’ and Judge Andrews’ egregious
misconduct, procedural chicanery, obstructing justice, breach of oaths of
office, breach of public trust and breach of contract. I complied with all
court orders, I did not delay the proceedings, asking the Court to enforce the
Law of the Land— Mandated Prohibition by Justice Marshall is not
frivolous. Judge Andrews awarding attorney’s fees to Defendants did not
benefit the public nor did it enforce the right that affects the public
interest nor was it an equitable remedy. It is unfair to me, the victim, as it
was Judge Andrews and Appellees who acted in malice, in bad faith and
oppressed me. I have been financially and physically injured. I have been
deprived of my royalties. My inventions are in ubiquitous use worldwide,
allowing Microsoft, IBM, SAP, JPMorgan and the U.S. Government to make
$trillions, including Judges Andrews, PTAB Judges McNamara, and Siu, with
stock in the above Corporations and Microsoft, who refused to recuse.
51.This is a case of Collective Nonfeasance by District Court Judge Andrews,
Legislature and Executive Branch (USPTO) in their failure to enforce the Law
of the Case and Supreme Law of the Land — the Mandated Prohibition from
repudiating a Government-issued contract grant — declared by Chief Justice
Marshall. They disparately failed to abide by both Federal Circuit and
Supreme Court Precedents, while conceitedly sharing a common objective —
to remain silent as fraud, willfully and wantonly avoiding enforcing Fletcher
v. Peck (1810). America Invents Act legalized the Executive Branch
USPTO’s unconstitutionally appointed judges (APJs) to perform the function
of the Judiciary in violation of the Separation of Powers, Contract and
Appointments Clauses of the Constitution, as declared in Arthrex.
19

52.This entire Case revolves around the Judiciary avoiding enforcing Fletcher at
all costs and shutting me down. They know why — because enforcing
Fletcher exposes the entire Patent System, operating as a criminal enterprise,
defrauding the public.
53.The rest is about Malfeasance by Judge Andrews and the USPTO/PTAB
oppressing me, bullying me into silence for being the first one to put them on
notice of their solemn oath duty to enforce Fletcher. The denial of due process
could not have been more egregious by Judge Andrews acting as Attorney to
Defendants. As a result, I have not had my day in court.
54.Judge Andrews and USPTO impaired the contract protected by the
Constitution of the United States by not considering intrinsic material prima
facie evidence when claims were unambiguous in view of intrinsic evidence
- Patent Prosecution History.
55.They failed to apply this Court’s Aqua Products' reversal of all such
Erroneous and Fraudulent Orders that failed to consider “the entirety of the
record.”
56.Financially conflicted Judges Andrews, McNamara and Siu admitted holding
direct stock in the Defendants JPMorgan and Microsoft, refused to recuse and
made False Official Statements and False Claims of collateral estoppel, falsely
propagated across all District and Appellate courts.
57.They aided and abetted in the theft of my property, unjustly enriching
Defendant-Appellees by trillions of dollars. They limited competition, this is
antitrust. They and Appellees collectively committed inchoate offenses.
58.This rescinding act has the effect of an ex postfacto law and forfeits my estate
“for a crime not committed by” me, “but by the Adjudicators” by their Orders
which “unconstitutionally impaired” the contract with me, which, “as in a
conveyance of land, the court found a contract that the grant should not be
revoked.”
59.They intimidated me, took away my electronic filing capability, disparately
ordered me to call a teleconference meeting with the Agency and Defendants
to request my filings be docketed, awarded $148K as attorneys’ fees in
retaliation for moving to recuse due to their financial conflicts of interest.
60.They denied me both procedural and substantive due process. Courts
dismissed my cases despite a medical crisis. Judges ridiculed me for my
20

speech impediment from a head injury, refused to release the audio transcripts,
tampered with the record, hid and struck my filings.
61.They punished me under the color of law and authority in retaliatory, cruel
and unusual punishment in violation of the 8th Amendment.
62.1 am entitled to Constitutional Redress.
63. Chief Justice Marshall declared that any acts and Orders by the Judiciary that
impair the obligation of the contract within the meaning of the Constitution of
the United States “are consequently unconstitutional and void.” The Supreme
Court already reversed in 1810 and 1819 the unconstitutional, void, Erroneous
and Fraudulent Orders in my cases.
64.DENIAL OF ATTORNEYS’ FEES AND SANCTIONS IS
WARRANTED, PURSUANT TO THE PUBLIC INTEREST
DOCTRINE AND BECAUSE MY NOTICE TO THE COURT TO
ENFORCE STARE DECISIS SUPREME COURT’S MANDATED
PROHIBITION BENEFITS THE PUBLIC AND I BROUGHT THIS
ACTION TO ENFORCE A RIGHT THAT SIGNIFICANTLY
AFFECTS THE PUBLIC INTEREST.
65.Government misconduct by Judge Andrews, Agency (USPTO/PTAB)
violating the Separation of Powers and Contract Clauses of the Constitution
and stare decisis Mandated Prohibition against repudiating Government
issued contract grants of any kind — the Law of the Case and the Supreme
Law of the Land and suppressing material prima facie evidence — Patent
Prosecution History that my patent claims are neither invalid nor claim terms
indefinite, provide a more-than sufficient basis for denying attorneys’ fees and
sanctions against me. I, an innocent Senior Citizen, single, disabled 73-year
old female inventor of significant inventions of the Internet of Things (IoT)
— Web Apps displayed on a Web browser, that have enabled the nation to
function remotely during COVID, am the target of elder abuse, fraud and
obstruction of justice by financially conflicted Judge Andrews, who knows
that he is not authorized to invalidate granted patents contrary to Fletcher.
The egregious misconduct by Judge Andrews, and the seven-year abuse of
elderly, single, disabled Dr. Arunachalam, injuring her physical health,
subjecting her to emotional duress, and theft of her intellectual property and
patents by Appellees aided and abetted by the USPTO, Congress and
21

financially conflicted APJs McNamara and Siu, cry out for ending this ordeal
immediately and permanently.
66. Judge Andrews’ Orders in this and all of my cases he presides over reveal his
plan to obstruct justice in my cases indefinitely, rubbing salt in my open
wound from Judge Andrews’ and APJs’ misconduct and threatening me with
sanctions and sanctioning me with cruel and unusual punishment, falsely
dubbing me “frivolous and malicious” with all evidence pointing to the
contrary, particularly for defending the Constitution and asking Judge
Andrews and PTAB to enforce Fletcher.
67.1 have already suffered an unimaginable ordeal at the hands of unscrupulous,
lawless, financially conflicted Judges who failed to enforce Fletcher - the Law
of the Land. I suffered from the defamation and libel by Judge Andrews,
PTAB Judge McNamara, Appellees and their attorneys engaged in unlawful
Solicitations, under cover of privileged documents filed in court. I revere our
nation and the Constitution, for which I risked my life — financial ruin,
mental anguish and physical injury caused by financially conflicted Judges
obstructing justice and hindering access to the court, entitling me to
Constitutional redress.
68.The wrongful and wasteful failure to enforce Fletcher and Dartmouth College
must end. The Judiciary and USPTO/PTAB continuing in this fashion
does not serve the interests of the public or the United States or inventors.
69.DENIAL OF ATTORNEYS’ FEES AND SANCTIONS IS APPROPRIATE.
70.1, through no fault of my own, was drawn into a nightmare of Judges failing
to enforce the Mandated Prohibition. I was subjected to deception, abuse,
penury, obloquy, and humiliation. Having risked my life in service to our
nation, I found myself the target of elder abuse and obstruction of justice
designed to strip me of my savings, and to deprive me of my patent properties.
I have been dragged through the mud and forced, through the artful
withholding of information material prima facie evidence of Patent
Prosecution History, crucial to the falsity of Judge Andrews’ False Official
Statements that falsely allege that my patent claims are indefinite and invalid
and of a false collateral estoppel from his Erroneous and Fraudulent Orders.
Having at last, through the relentless determination of my current counsel,
namely, myself, brought the truth to light, I now leam that the judge who is
22

charged with adjudicating my case impartially has decided to “play[] ...
Attorney” to Defendant-Appellees. Equity demands an end to this nightmare
and restoration of my virgin patent properties and peace of mind.
71.The reputation of the judiciary is in jeopardy. Judge Andrews “in this case
has abandoned any pretense of being an objective umpire” — going so far as
to sanction me for asking the Court to enforce the stare decisis Mandated
Prohibition; and Separation of Powers and Contract Clauses of the U.S.
Constitution.
72.
Confidence in the rule of law, and the willingness of federal judges to
administer it impartially, will continue to erode, if this Court fails to put a
swift end to this debacle.
73 Judge Andrews’ manifest procedural irregularities and falsely accusing Dr.
Arunachalam as “vexatious” for defending the Constitution and his cruel and
unusually punitive intentions are well documented and is “the very antithesis
of calling balls and strikes.”
74, Judge Andrews sanctioning me S148K, hiding my documents without filing
and docketing them to cover up his own culpability and lawlessness —
bespeaks of a judge not only biased against me, but not doing his duty to
enforce the Law of the Land.
75.APPELLEES’ ATTORNEYS’ MATERIAL MISREPRESENTATION OF
FALSE GROUNDS IN STATEMENT OF ISSUES CONSTITUTES
FRAUD ON THE COURT, SEDITIOUS ATTACK ON THE
CONSTITUTION, PATTERNED BREACH OF SOLEMN OATHS OF
OFFICE, OBSTRUCTION OF CONSTITUTIONAL JUSTICE, A
CONSTITUTIONAL EMERGENCY.
76.Appellees’ attorneys have been engaged in a false propaganda of collateral
estoppel from void Orders by financially-conflicted judges, who did not
consider “the entirety of the record”— Patent Prosecution History — material
primafacie evidence that inventor’s patent claim terms are not indefinite, nor
patent claims invalid, as falsely alleged by Appellees. Aqua Products Inc. v.
Matal, Fed. Cir, 15-1177 (2017) voided these Orders. Judges failed to enforce
GOVERNING Supreme Court precedents that a grant is a contract that cannot
23

be repudiated— the Law of the Case and Supreme Law of the Land — in
breach of solemn oaths of office and fiduciary duty/trust.
77.Appellees, attorneys, Courts, PTAB and USDOJ were put on notice of
governing Supreme Court precedents and Aqua Products. They have
remained silent (as fraud) in willful or culpable silence. “Silence” implies
knowledge, and an opportunity to act upon it.” Pence v Langdony 99 US 578
(1878). Their lack of response is a Default, after being put on notice. Their
Silence “comprises their stipulation and confession jointly and severally to
acceptance of all statements, terms, declarations, denials and provisions
herein as facts, the whole truth, correct and fully binding on all parties.”
“Upon Default, all matters are settled res judicata and stare decisis.” “Default
comprises an estoppel of all actions, administrative and judicial.” bv Courts.
PTAB and Appellees against me.
78.JUDICIARY AND PTAB’S MISFEASANCE UNDER COLOR OF LAW:
COURTS AND PTAB DISPARATELY DENIED ME MY PROTECTED
RIGHTS TO: DUE PROCESS, IN AN ORCHESTRATED FARCE AND
FALSE PROPAGANDA OF A FALSELY ALLEGED COLLATERAL
ESTOPPEL FROM VOID ORDERS IN A COLLUSIVE ASSOCIATIONIN-FACT PROCESS AS SOLICITEES TO SOLICITATIONS BY
APPELLEES/LAWYERS TO AID AND ABET ANTI-TRUST.
79.The Courts did not consider material prima facie evidence, and condemned
before inquiry, when claims were unambiguous in view of prima facie
material intrinsic evidence of Patent Prosecution History, never considered by
any Court in any of my cases, starting from the very first case, nor examine
independent and dependent claims of my virgin U.S. Patent Nos. 7,930,340;
8,271,339, never examined by any court nor re-examined by PTAB, nor of
any of my patents.
80.Even if the claims of my U.S. Patent Nos. 5,987,500; 8,037,158; and
8,108,492 are invalid (which they are not), as falsely alleged by Appellees
and Judges in an orchestrated farce, those so-called “invalid” claims of the
‘500, ‘492 and ‘158 patents have no effect on the independent or dependent
claims of the patent-in-suit. The District Court never reached the patent case.
81.“A patent shall be presumed valid. Each claim of a patent (whether in
independent, dependent, or multiple dependent form) shall be presumed valid
24

independently of the validity of other claims; dependent or multiple dependent
claims shall be presumed valid even though dependent upon an invalid claim.”
35 USC § 282.
82.The very Patent Statute proves SAP’s Statement of Issues blatantly false that
“patent claims asserted were barred by collateral estoppel either because they
were squarely invalidated in prior cases or depended on claims previously
invalidated.”
83. Judge Andrews admitted he had stock in JPMorgan during the pendency of
that case. Supreme Court precedents and Aqua Products collaterally estop
Appellees’ false allegations of collateral estoppel from void Orders.
84.10/31/19 ARTHREX PRECEDENT MUST APPLY—PTAB JUDGES
UNCONSTITUTIONAL — CHANGE IN LAW DURING APPEAL.
85.PTAB judges acting outside of their authority voids all PTAB IPR/CBM
rulings.
86.INVENTOR RIGHTS ACT PASSED 12/18/19 BY CONGRESS— GIVES
SUBSTANTIAL NEW RIGHTS TO INVENTORS WHO OWN THEIR
OWN PATENTS,
to opt out of PTAB re-exams and recover all profits made by infringers.
87.MEMORANDUM OF PUBLIC CONTRACT AND CONSTITUTIONAL
ENTITLEMENTS DENIED FOR WANT OF ‘DUE PROCESS’ ACCESS
UPON THE QUESTION ITSELF.
88.Courts made it unreasonably burdensome, downright dangerous, and
expensive for me to have access to the Court on the question of due process
itself.
I declare under the penalty of perjury under the laws of the United States and the
State of California and Delaware that the foregoing is true and correct. Executed this
11th day of January, 2021 in Menlo Park, California.
222 Stanford Avenue
Dr. Lakshmi Arunachalam
Menlo Park, CA 94025
650 690 0995, laks22002@vahoo.com

25

VERIFICATION
In accordance with 28 U.S.C. Section 1746,1 declare under penalty of perjury
that die foregoing is true and correct based upon my personal knowledge.
Executed on January 11,2021
Dr. Lakshmi Arunachalam, a woman,
222 Stanford Ave, Menlo Park, CA 94025
Tel: 650.690.0995; Laks22002@yahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

26

CERTIFICATE OF MAILING AND SERVICE
I certify that on 1/11/2021,1 filed an original of the foregoing paper, Exhibits, and my
Declaration in support thereof, with the Clerk of the Court in the United States Court
of Appeals for the Federal Circuit, via FEDEX priority express overnight, to:
The Clerk of the Court,
U.S. Court of Appeals for the Federal Circuit,
717 Madison PI NW, Washington, DC 20439
and I certify that on the same day, I served a copy on counsel of record for all
Appellees, via email and by Express Mail via the U.S. Postal Service for overnight
delivery at the following addresses:
SAP America, Inc.;
Joseph M Beauchamp, Jones Day,
717 Texas Ave, Ste 3300, Houston, TX 77002;
832-239-3939; jbeauchamp@jonesday.com.
Counsel for SAP;
JPMorgan Chase and Company;
Doug Nemec, Skadden Arps Slate Meagher and Flom, LLP,
Four Times Square, New York, NY 10036;
(212) 735-2419; Douglas.Nemec@skadden.com;
Counsel for JPMorgan Chase & Co;
IBM;
Kevin James Culligan, Maynard, Cooper & Gale, P.C.; 551 Fifth Avenue, Suite
2000; New York, NY 10176;
646-609-9282; kculligan@maynardcooper.com;
Counsel for IBM.
January 11,2021

Respectfully submitted,

Dr. Lakshmi Arunachalam, a woman,
222 Stanford Avenue, Menlo Park, CA 94025
Tel: 650.690.0995;Email: laks220Q2@vahoo.com
Dr. Lakshmi Arunachalam, a woman,
Self-Represented Appellant

27

&<<h\bifc C.'
IN THE PATENT AND TRADEMARK OFFICE
In re Patent No. 6,212,556

)
)

Patent Owner: WebXchange, Inc.

)

REEXAM Control NO: 90/010,417

)

Art Unit: 3992

)

Re-exam filing date: 2/23/2009
Patent issue date: 04/03/2001
Title: CONFIGURABLE
VALUE-ADDED NETWORK
(VAN) SWITCHING

Examiner; Z. Cabrera

)
)
)
)
)
)
)
)

DECLARATION OF DR. MARKUS W. COVERT
1.

My name is Dr. Markus W. Covert of 804 Clark Way, Palo Alto, CA 94304.

I have been retained to offer opinions with respect to prior art references cited in this
reexamination. I base these opinions on my education and training in informatics,
described below.
2.

I am currently an Assistant Professor of Bioengineering at Stanford

University and teach and do research in computational biology and bioinformatics. My
hourly rate in consulting is $250.
3.

For three years starting in January 2004,1 was a postdoctoral fellow at the

California Institute of Technology, working with the Nobel Prize winner and thenPresident of Caltech, David Baltimore. During that time, I was awarded a highly
competitive Damon Runyon postdoctoral fellowship, as well as a fellowship from the
National Institutes of Health, for my work in understanding complex biological systems.

! hold a Ph.D. degree in Bioengineering and Bioinformatics from the University of
California, San Diego, and was the first graduate of this competitive program.
4.

My resume is attached as an exhibit at the end of this declaration. I have

published several papers on computational biology and bioinformatics, including in such
journals as Science and Nature.

I also have taught a class at Stanford on

computational methods for studying biology for three years now.
5.

I am familiar with United States patent number 6,212,556 (“the '556

patenf) and the current reexamination (control number 90/010,417). In particular, I am
familiar with Requester’s arguments and Requester’s Cited Art:
1. Payne (US 5,715,314);
2. McPartlan (US 5,822,569);
3. Kahn (US 6,135,646);
4. Shwed (US 5,835,726);
5. Braden (RFC 1122 - “Requirements for Internet Hosts - Communication
Layers”);
6. CORBA (“The Common Object Request Broker: Architecture and Specification
Revision 2.0 July 1995, Updated July 1996”);
7. Orfali (“The Essential Distributed Objects Survival Guide” - Robert Orfali, Dan
Harkey, Jeri Edwards, 1996 John Wiley &Sons);
8. Popp (US 6,249,291);
9. Gifford (US 5,724,424; US Ser. No. 08/168,519);
10.Ginter (US 5,910,987);
11. Crandall (US 5,159,632);

-2-

12.Elgamal (US 5,671,279);
13. Atkinson (RFC 1825 - “Security Architecture for the Internet Protocol”); and
14. Birrelt (Network Objects -

SRC Research Report 115, Andrew Birrell, Greg

Nelson, Susan Owicki, and Edward Wobber).
6.

I have found that all of these documents are missing several critical

aspects found in Claims 1-30 of the ‘556 patent. I will begin with Payne and Gifford.
Payne and Gifford are closely related to each other. Both describe a user jumping from
one URL to another URL, otherwise known as Web browsing.

Payne and Gifford

describe a user typing in a URL and browsing the Website of a Merchant, who displays
foe images of products. They further describe that foe Web server serves standard
HTML documents (more commonly known as Web pages) to the user. The user may
choose to go to another Website. In order to go to another Website, the user must
leave the Merchant Website. When the user chooses to hotlink to another URL, there
is only one computer system, the Web server, that he browses.
7.

The merchant Web server presents a Web page with a hotlink in it. When

the user clicks foe hotlink, foe user leaves the merchant Website. The user is no longer
at the merchant Website and is now at the payment Website. In other words, the user’s
browsing is one-to-one - only the user and the Web server are involved, and not a
second computer system. The payment Web server presents the user with a Web page
with a Web form, so the user may fill out personal information and hits foe submit
button. The Web server strips the form and sends one field at a time to CGI using
standard I/O, which then forwards it to a Back-office application.

There is no Web

application, nor one with a data structure in the front-end Web page. Neither Payne nor

3»

Gifford contain any hint, mention of, or use of object-oriented programming techniques.
So there is no “object", nor “object identity”, nor “networked object", nor "object routing”,
much less on a “value-added network" atop the Web that offers a Web application as an
on-line service atop the Web.

There is no data structure, nor an encapsulated data

structure, that is transmitted from the Web page through a Web server to the Backoffice application. There is no connected Web application or a connected Back-Office
application. Gifford’s use of a timestamp or “nonce" does not change this. Payment
Web server presents a Web page with a hotlink in it. When the user clicks the hotlink,
the user leaves the payment Website. The user is no longer at the payment Website
and is now at the merchant Website. Again, only the user and the Web server are
involved, and not a second computer system. URLs are passed serially as the buyer
opens a new account, attempts login, etc.
8.

I find that the ‘556 patent has several aspects that are missing in Payne

and Gifford. One is embodied in the mention of an “object identity” with “information
entries and attributes.” Another aspect missing in Payne and Gifford is the use of an
“object” which is a data structure. Payne and Gifford have fields in a database, such as
ID, price, etc.

These fields are not "object identity” nor “attributes”, as they are not

related to a data structure or “object”, as in the ‘556 patent. A related aspect that is
missing in Payne and Gifford is the notion of a “networked object” that is described in
the ‘556 patent. Payne and Gifford do not automate the flow of a Web transaction over
an end-to-end channel, routing encapsulated data structures atop the internet or Web
through a Web server to, for example, a Back-office application, as in the '556 patent.
Payne and Gifford are each missing “object routing".

-4-

9.

“Object routing” leads to dramatic advantages of the ‘556 and its parent

patents over any of the Requester’s cited art, such as any-to-any communication, endto-end seamless automation, n-way transactions on the Web, an intelligent overlay
service network across the value-chain from user to provider, Web applications offered
as online services, a powerful platform for Web applications and services-on-demand
over the Web, cloud computing, and many more advantages.

10.

None of the references Requester has cited, discuss the exchange of

structured information between the user and transactional application executing for
example, at the Back-office of a Web merchant or between the purchaser, payment
service, merchant, and/or any other involved parties, nor an end-to-end channel
allowing an encapsulated data structure to be transmitted atop the Web through a Web
server from a Web page. None of the cited art describe an open channel dynamically
created on-demand through a Web server between a Web application and a
transactional application.
11.

In Payne and Gifford, the application logic is not on the front-end Web

page, payment application is local to the Back-office, not on the front-end Web page.
Their database does not provide the correlation between front and back-end. There are
also several features of the ‘556 patent that are significantly missing in Payne and
Gifford, namely, the automation of the flow of a Web transaction in a Web application,
nor is there an intelligent service network atop the Web. Payne and Gifford do not even
hint at “object routing", nor do they have a “networked object”.

-5-

12.

Upon examination, it is clear that McPartlan has essentially nothing to do

with the *556 patent, Payne, Gifford, Ginter, or Popp.

McPartlan focuses on the

management of a physical network of physical devices.
13.

Unlike the ‘556 patent, McPartlan does not relate to Web applications,

including Internet commerce. The physical device in McPartlan is referred to as an
object, but the McPartlan object is not a data structure. Nor is it a data structure upon
which methods, operations or transactions can be performed, as one might with the
“object" in the ‘556 patent, such as making a travel reservation on the Web, etc. The
McPartlan object is not even related to object-oriented programming.

There is no

“object routing" in McPartlan. No methods, nor operations upon McPartian’s objects, nor
object routing are possible or even mentioned or alluded to in McPartlan.
14.

There are also several features of the ‘556 patent that are significantly

missing in Ginter. Ginter describes a digital rights management system, which includes
a container with content (for example, a digitized film) and a code key to unlock the
content for use. This container is termed an object in Ginter, but has no relationship to
the “object” in the ‘556 patent. The Ginter container has an ID; however, this ID is a
field in a database. Furthermore, the control described in Ginter is not the distributed
control of the ‘556 patent, that includes “networked object”, “object routing”, automation
of the flow of a Web transaction in a Web application, nor of an intelligent service
network atop the Web.
15.

Of all the prior art cited by the Requester, only Popp refers to object-

oriented programming. Popp teaches the use of object-oriented programming to create
new web pages automatically. The object-oriented programming objects described in

*6"

Popp are display elements - in other words, object-oriented programming is used to
generate HTML text which can be read as web pages in browsers. Popp does not even
/

hint at “object routing", nor does he have a “networked object”. When Popp talks about
control, he talks about the control of the template of a Web page, for repetitive elements
on a Web page and for varying the display.
16.
controversial.

In November 1995, object-oriented programming was still quite
The few truly object-oriented programming languages were not in

widespread use.

It was more common to find languages which were adapted to

include some object-oriented features. “Controversial” is the antithesis of “obvious”.
17.

Several features of the ‘556 patent are missing from the cited art, and are

not obvious in any way, even if the cited references were combined in different
permutations or taken individually. These include, but are not necessarily limited to,
“networked object", and “object routing”, as described in detail above. There would
have been no motivation or possibility to combine hardware monitoring and diagnostics
as in McPartlan with rendering of a Web page as in Popp, or with hotlinking, Web
browsing, CGI and HTML as in Payne and Gifford, or with encryption key for protecting
from piracy of content as in Ginter, or with transport layer messages via the physical
Internet as in CORBA and Orfali, individually or in any permutation of the above. The
'556 patent, therefore, makes several substantial, non-intuitive innovative leaps beyond
the state of the cited art, all together as well as separately.
18.

In Dr. Arunachalam’s inventions in the ‘556 patent, a “value-added

network” is a service network atop the Web that offers a Web application connecting to
a transactional application. A “value-added network” is a service network over which

real-time Web transactions can be performed from a Web application by accessing a
transactional application offered as an on-line service via the Web.
19.

A service network offers a service, or an on-line service atop the Web. A

service is an application, as stated in the ‘556 and its parent patents as “a particular
type of application or service”. An on-line service atop the Web is a Web application.
So, a “value-added network” is a service network atop the Web, that offers a Web
application as an on-line service. The Web application offered over the service network
atop the Web is the value-add in the value-added network.
20.

In the ‘556 patent, a “value-added network" includes "a service network

running on top of an IP-based facilities network such as the Internet, the Web ...".This
distinction of:
a service network over a physical network or IP-based facilities network,
such as the Internet, the Web or email networks;
the service network atop the Web versus the physical Internet; and
the application layer, as in the application layer of the OSI model, as in
the ‘556 patent versus the lower layers such as the transport layer, like
TCP/IP, or link layer or network layer or MAC layer
needs to be kept in mind in distinguishing the ‘556 patent from the Requester’s cited
art. On-the-wire communication at the transport layer, such as CORBA, Orfali, Birreli,
Braden, Kahn, Ginter; physical network like Shwed, Braden, McPartlan, is clearly at a
lower layer versus a “value-added network", as in the 556 patent.
21.

In the '556 patent, a user specifies a real-time Web transaction from a

Web application connecting to a transactional application, as opposed to mere Web

-8-

browsing. If this were mere Web browsing as described in Payne, Gifford and Popp,
one would never get past the Web server to a Back-Office transactional application.
They would never make it to a Back-Office in real-time, let alone to a transactional
application at the Back-Office. That is one of the reasons they end up with deferred
transactions.
22.

The ‘556 patent describes a user value-chain in which real-time Web

transactions occur from a user interacting with a Web application. The user value-chain
consists of:
a user,
a Web server,
a Web page displaying one or more Web applications,
a Web application including “object”(s) or data structures specific to the
Web application,
a user transaction request from a Web application,
object router,
an open channel over which “objects" are routed through a Web server,
a transactional application to service the request,
a service network connecting a Web application to a transactional
application, (aka a value-added network), and
real-time Web transaction.
23.

If the Requester’s cited art is considered individually or in any

combination, no real-time Web transactions occur from a user interacting with a Web
application. None of the cited art offers a Web application.

-9-

24.

In Payne, Gifford and Popp, there is a user, a Web server, and even a

Web page, but not a Web page displaying one or more Web applications. Their user
value-chain does not result in real-time Web transactions from a user interacting with a
Web application, for a simple reason that there is no Web application.
25.

In McPartlan, Braden, Shwed, there is a physical network, but no service

network and not even a user for there to be a user value chain. No real-time Web
transactions occur from a user interacting with a Web application.
26.

In CORBA, Orfaii, Birrell, there is a transport layer, that is a lower layer

than the application layer, and there is no service network. They describe objects, but
no Web applications. There is no data structures specific to a Web application. There is
no user transaction request from a Web application. There is no object routing. There is
no service network connecting a Web application to a transactional application, (aka a
value-added network). No real-time Web transactions occur from a user interacting with
a Web application.
27.

In Kahn, Ginter, Atkinson, Crandall, Elgamal, there is no service network

and no Web application. They offer encryption and digital rights’ management. Kahn
and Ginter describe objects, but not objects that are data structures. Their objects are
files, for example, video files, that need to be protected from piracy. Such files may be
shared from a network server via a LAN, which is a physical network. There is no user
transaction request from a Web application. There is no object routing. There is no
service network connecting a Web application to a transactional application, (aka a
value-added network). No real-time Web transactions occur from a user interacting with
a Web application.

-10-

28.

By combining these four groups of Requester's cited art, namely:
• the Web server group (Payne, Gifford, Popp),
• the physical network group (McPartlan, Braden, Shwed),
• the transport layer group (CORBA, Orfali, Birrell), and
• the file sharing over a physical network group (Kahn, Ginter,
Atkinson, Crandall, Elgamal),

they are still missing the inventive novelty in the ’556 patent, namely:
• a Web application,
• “object"(s) or data structures specific to a Web application,
• a user transaction request from a Web application,
• object routing,
• a service network connecting a Web application to a transactional application,
and
• an open channel over which "objects” are routed through a Web server.
Therefore, Requester’s cited art in any combination cannot re-create Patentee's
inventions, namely, a configurable value-added network switch that enables real-time
Web transactions on a value-added network atop the Web.
29.

In addition, Patentee's inventions enable:

• n-way real-time Web transactions,
• automating a transaction from beginning to end in real-time,
• holding a transaction captive at the network entry point on the Web,
• aggregation of Web application content,
• dynamic virtual packaging,

-II-

remote service partners,
routing switch within the application layer of the OSI model,
transactional application selection mechanism,
PoSvc application list on a Web page,
user selects a transactional application,
“user specification from a network application",
connected Web application,
"transaction link between network application and transactional application,"
“connected with the value-added network with the transactional application,”
service network that offers a Web application,
“service network on top of an IP-based facilities network,”
service network control,
usage-based services,
enabling service management of the value-added network service, to perform
OAM&P functions on the services network,
automated state management,
DOLSIB, and
• client-server-client server n-way in n-tier management model.
Terms such as aggregation of content, dynamic virtual packaging, value-added servicespecific virtual private network of remote service partners relate to the n-way
transactions and co-operating service partners, packaging and aggregating Web
applications as content in Applicant’s patents. Once again, Requester’s cited art lack
these features.

-12-

30.

In the '556 patent, a value-added network switch connects a user with an

on-line service in a service network atop the Web that offers a Web application
connecting to a transactional application. A value-added network switch links a user
with an on-line service in a service network offering a Web-enabled transactional
application. A “VAN switch” provides distributed control of the flow of a Web transaction
in a Web application in a service network atop the Web. A “VAN switch" is an end-toend solution that provides the value-added network service or Web application atop the
Web.

A “VAN switch" includes an “OSI application layer switch in a service network

atop the Web”. “Exchange and Management Agent constitute a VAN switch." A VAN
switch consists of boundary service, switching service, management service and
application service. A VAN switch includes the Point-of-Service Web applications on a
Web page, connecting through a Web server to a transactional application, executing
anywhere across a service network atop the Web, utilizing object routing. A switch in a
physical network, as in a Cisco switch or Cisco router in a physical network, is not what
the “switch" in the ‘556 patent is about. Such a physical network switch operates
clearly at a lower layer than the "application layer network” or "service network atop the
Web”, as in the '556 patent.
31.

“Real-time transactions” in Applicant’s patents are real-time Web

transactions from a Web application. Real-time Web transactions are performed by a
user accessing an on-line service

in a service

network offering

a Web-

enabled transactional application. Real-time Web transactions performed from a Web
application by accessing a transactional application offered as an on-line service via the
Web. In simple words, real-time Web transactions are performed over a “value-added

-13-

network” that is a service network atop the Web that offers a Web application
connecting to a transactional application. There is a clear distinction between Web
browsing versus real-time Web transactions from a Web application, as described
in the '556 patent. It is noteworthy that there is an absence of a Web application in
each of Requester’s cited art. So, no real-time transactions are performed in
Requester’s cited art, because there are no real-time Web transactions from a non­
existent Web application.
32.

Requester’s cited art may include an application local to the Back-end. It

does not necessarily follow that such an application connects to a Web application at
the front-end.

This leaves behind a disjointed island of information not connected

through a Web server to a non-existent front-end Web application.
33.

In the ‘556 patent, for the purposes of clarification, a “transactional

application" is a PoSvc application. A “transactional application selection mechanism” is
a PoSvc application list on a Web page. A “network application” is a Web application
connecting to a transactional application over a service network atop the Web. A “user
application" is a PoSvc transactional application or a Web application. A “user
specification from a network application” is a Web transaction specified by a user from a
Web application connecting to a transactional application over a service network atop
the Web. A “user specification from a network application” is a real-time Web
transaction specified by a user, a Web transaction that a user desires to perform, to
access, for example, a Web merchant’s services via the Web, from a Web application
connecting to a transactional application over a service network atop the Web.

-14-

34.

All statements made herein of my own knowledge are true and all

statements made on information and belief are believed to be true.

Date: 2-'i2.-2oio

Signature:
Dr. Markus W, Covert

* 15 -

EXHIBIT A: DR. MARKUS W. COVERT'S RESUME
Positions
2007-

Assistant Professor, Department of Bioengineering, Stanford University,

2004-2006

Postdoctoral Scholar, David Baltimore Lab, Biology Division, Caltech.

2001

Research Scientist Consultant, Genomatica, Inc,

1998-2003

Graduate Student, Palsson Lab, Department of Bioengineering, UCSD.

1997-1998

Engineer, Research and Development, Elesys, Inc,

1996-1997

Research Assistant, Chemical Engineering Department, BYU.

Honors
2007-

National Cancer Institute, Pathway to Independence Award (K99/R00).

2004-2006

Damon Runyon Cancer Research Foundation, Postdoctoral Fellowship.

2004

National Cancer Institute, Postdoctoral Fellowship, 2004 (declined).

2003

University of California, San Diego, First Graduate in Bioinformatics.

1991 -1997

Brigham Young University, Ezra Taft Benson Presidential Scholarship.

Professional Societies
2002-2009

Biomedical Engineering Society

1996-2003

American Institute of Chemical Engineers

Peer-reviewed publications (in chronological order)
1.

Lee TK, Denny EM, Sanghvi JC, Gaston JE, Maynard ND, and Covert MW.
“A stochastic switch determines the cellular response to LPS”, in revision.

2.

Seok J, Xiao W, Moldawer LL, Davis RW, and Covert MW. “A dynamic
network of transcription in LPS-treated human subjects”, in review.

3.

Hughey JJ, Lee TK, Covert MW. “Modeling Mammalian Signal Transduction
Networks” In Press, Wiley Interdisciplinary Reviews: Systems Biology.

4.

Terzer M, Maynard ND, Covert MW, and Stelling J.“Genome-scale metabolic
networks”, in Press, Wiley Interdisciplinary Reviews: Systems Biology.

5.

Covert MW (Corresponding Author), Xiao N, Chen TJ, and Karr JR.
"Integrated Flux Balance Analysis Model of Escherichia coli" Bioinformatics.
2008. Sep15:24(18): 2044-50. PMID: 18621757

6.

Covert MW, Leung TH, Gaston JE, Baltimore D. "Achieving stability of
lipopolysaccharide-induced NF-kB activation" Science. 2005. 309(5742):
1854-7.

7.

Covert MW. "Integrated regulatory and metabolic models" Computational
✓

Systems Biology. Academic Press, New York, 2005.
8.

Herrgird MJ, Covert MW, Palsson B0. "Reconstruction of microbial
transcriptional regulatory networks" Curr Opin Biotechnol. 2004.15(1): 70-7.

9.

Covert MW, Knight EM, Reed JL, HerrgSrd MJ, Palsson B0. "Integrating
high-throughput and computational data elucidates bacterial networks"
Nature. 2004.429(6987): 92-6.

-17-

10.

Covert MW, Palsson B0. "Constraints-based models: regulation of gene
expression reduces the steady-state solution space" J Theor Biol. 2003.
221(3): 309-25.

11.

Covert MW, Famili I, Palsson B0. "Identifying constraints that govern ceil
behavior: a key to converting conceptual to computational models in biology?"
Biotechnol Bioeng. 2003. 84(7): 763-72.

12.

HerrgSrd MJ, Covert MW, Palsson B0. "Reconciling gene expression data
with known genome-scale regulatory network structures" Genome Res. 2003.
13(11): 2423-34.

13.

Covert MW, Palsson B0. "Transcriptional regulation in constraints-based
metabolic models of Escherichia coli" J Biol Chem. 2002. 277(31): 28058-64.

14.

Schilling CH, Covert MW, Famili I, Church GM, Edwards JS, Palsson B0.
"Genome-scale metabolic model of Helicobacter pylori 26695" J Bacteriol,
2002. 184(16): 4582-93.

15.

Covert MW, Schilling CH, Famili I, Edwards JS, Goryanin II, Selkov E,
Palsson B0. "Metabolic modeling of microbial strains in silico" Trends
Biochem Sci. 2001.26(3): 179-86.

16.

Covert MW, Schilling CH, Palsson B0. "Regulation of gene expression in flux
balance models of metabolism" J Theor Biol. 2001. 213(1): 73-88.

17.

Edwards JS, et al. "Genomic Engineering of Bacterial Metabolism"
Encyclopedia of Microbiology. Academic Press, New York, 2000.

-18-

Patents
1. Bradshaw, G.L., Covert, M.W., R.Q., Sorensen, M.K., and Unter, J.E., "Radial
Printing System and Method," United States Patent 6,264,295 July 2001
2. Palsson, B.O., Covert, M.W., and M.J, Herrgard, "Models and Methods for
Determining Systemic Properties of Regulated Reaction Networks”- Patent
Pending (Application Number 20040072723)
3. Palsson, B.O., Famili, lM and Covert, M.V. and C.H. Schilling, “Human
Metabolic Models and Methods,” Patent Pending (Application Number

20040029149).
4. Palsson, B.O., Covert, M.W., and C.H. Schilling, “Models and Methods for
Determining Systemic Properties of Regulated Reaction Networks,” Patent
Pending (Application Number 20030059792).

-19-

Exh\\>\ b 1>.
IN THE PATENT AND TRADEMARK OFFICE
In re patent No. 7,340,506

)
)

Patent Owner WebXchange, Inc.

)

REEXAM Control NO: 95/001,129
Reexam filing date: 12/19/2008
Patent issue date: 03/04/2008
Title: VALUE-ADDED NETWORK
SWITCHING AND OBJECT
ROUTING

)
)
)
)
>
)
)
)
)
)
)

Art Unit: 3992
Examiner: Z. Cabrera

DECLARATION OF DR. JAY M. TENENBAUM
1.

My name is Dr. Jay M. Tenenbaum. My address is 169 University Avenue,

Palo Alto, CA 94301. I have been asked to offer opinions with respect to prior art
references cited in this reexamination. I base these opinions on my experience as a
recognized pioneer and visionary in Internet and Web technologies, and my training and
education.
2.

I am currently Chairman and Chief Scientist of CollabRx, Inc. in Palo Alto,

CA. I bring to CollabRx the unique perspective of a world-renowned Internet commerce
pioneer and visionary. I was Founder and CEO of Enterprise Integration Technologies,
the first company to conduct a commercial Internet transaction (1992), secure Web
transaction (1993) and Internet auction (1993). In 1994, I founded CommerceNet, the
first industry association for Internet Commerce. In 1997, I co-founded Veo Systems,
the company that pioneered the use of XML for automating business-to-business
transactions. I joined Commerce One in January 1999, when it acquired Veo Systems.

As Chief Scientist of Commerce One, I was instrumental in shaping the company’s
business and technology strategies for the Global Trading Web. Post Commerce One, I
was an officer and director of Webify Solutions, which was sold to IBM in 2006, and
Medstory, which was sold to Microsoft in 2007. Earlier in my career, I was a prominent
Al researcher and led Al research groups at SRI International and Schlumberger Ltd. I
am a fellow and former board member of the American Association for Artificial
Intelligence, and a former consulting Professor of Computer Science at Stanford. I
currently serve as a director of Efficient Finance, Patients Like Me, and the Public
Library of Science, and am a consulting professor of Information Technology at
Carnegie Mellon’s new West Coast campus. I hold B.S. and M.S. degrees in Electrical
Engineering from MIT, and a Ph.D. from Stanford.
3.

At ColfabRx, I am applying my knowledge as a pioneer in Internet

technologies to personalized genomic medicine. I am working to slash the time and
cost of developing personalized therapies for those with rare and neglected diseases by
creating virtual biotechs that marry advances in genomics and computational/systems
biology with the efficiencies of web-based collaborative research. At CollabRx, I am
aiming to transform the life sciences industry—by connecting research labs, biotechs,
pharmas and their service providers into a networked ecosystem of interoperable
research services that can be rapidly assembled to develop new therapies with
unprecedented efficiencies and economies of scale. My mission is finding treatments for
rare and orphan diseases within the lifetimes and collective means of current patients.
Today there are over 6,000 such diseases identified, afflicting over 25 million people.

-2 -

4.

Attached as Exhibit A is my resume. I have published many papers, been

awarded numerous patents, and received many honors during my career on a wide
range of topics, from Internet and Web technologies to Web-based collaborative
personalized genomic medicine to Internet technologies applied to computational
biology and bioinformatics to Al.
5.

I have been briefed by the inventor on U.S. Patent 7,340,506 titled Value-

Added Network Switching and Object Routing ("'the ‘506 patent”), the provisional
application 60/006634 (“the ‘634 provisional application”); and the references that have
been asserted against the ‘506 patent in the reexamination proceeding including U.S.
Patent 6,249,291 to Popp (“Popp”); U.S. Patent 5,715,314 to Payne (“Payne”) and U.S.
Patent 5,910,987 to Ginter (“Ginter”), U.S. Patent 5,724,424 to Gifford (“Gifford”), and a
set of references directed to the Simple Network Management Protocol including
“Structure and Identification of Management Information for TCP/IP-based Internets,”
Rose and McCloghrie, Network Working Group Requests for Comments No. 1155
(“Rose RFC 1155”), "Management Information Base for Network Management of
TCP/IP based Internets: MIB-II,” Network Working Group Request for Comments No.
1213 ("McCloghrie RFC 1213”), “Party MIB for version 2 of the Simple Network
Management Protocol (SNMPv2),” Network Working Group Request for Comments No.
1447 (“McCloghrie RFC 1447”), and “Managing Internetworks with SNMP: the definitive
guide to the Simple Network Management Protocol and SNMP version 2” by Mark A.
Miller (“Miller”).
6.

It is my understanding, based on these briefings, that the ‘506 patent is

directed to interactive Web applications and exchange across a service network atop

-3-

the Web. More particularly, a Point of Service (PoSvc) application that encapsulates the
application logic in a data structure called an “object” is provided at a Web page. This
makes it a starting point for the control of the user experience and automation of the
transaction flow. The application logic is specific to and associated with the business
process of the on-line service offered by a provider atop the Web. The operations that
may be performed upon this data structure are the transactions a user may perform in
the value-added service or business process. Associating "information entries” input by
a user with the “attributes” in the data structure personalizes the transaction. The
instantiated data structure, called an “object identity”, is transmitted/routed over an open
channel across a value-added service network atop the Web. This type of
communication between the personalized data structure with the transactional “object”
executing in a Back-office application of a Web merchant makes it a “networked object”
and is called “object routing” because the personalized data structure is transmitted
over the open channel atop the Web through a Web server. The open channel is
created on-demand, in real-time, so object routing can be performed when a user
transacts.
7.

I have been told that numerous examples of these Web applications are

described in the ‘506 patent, such as checking account, savings account, HR
applications, payroll applications, and other PoSvc applications on a Web page. These
allow users to perform two-way, three-way, extended to n-way transactions and any-toany communications on the Web, thus facilitating a large, flexible variety of robust, real­
time transactions on the Web.

-4-

8.

Prior to 1995, with the invention of the '506 patent, and the first public

demonstrations of the Java programming environment, simple Web publishing
storefronts were the norm. An application was local to the Back-office. There were no
PoSvc applications on the front-end on a Web page, much less connecting to a
transactional application executing, for example, at the Back-office.

There was no

application logic or business process logic at the front-end on a Web page. A Web form
was commonly filled out by a user and submitted to a Web server, but there was no
Web application on the Web page. Rather, these publishing storefronts merely
automated order-taking on the Web and passed a request from a Web server. The
invention in the '506 patent was a leap forward to automating interactive Web
applications by creating an open channel for routing objects through a Web server
across a service network atop the Web.
9.

The invention in the ‘506 patent represents the evolution of the Web from

Web publishing, Web forms, and CGI to automated Web applications and Web
transactions. The invention in the ‘506 patent filled a need for a universal, automated,
open solution for Web applications and Web transactions. Communication of structured
information specific to online services over the Web provides distributed control of the
value-added service network and automation of the transaction flow. Transmitting the
application logic encapsulated as an “object” from a Web page to a transactional
application executing at the Back-office of a Web merchant serves to connect
application logic from a Web page to the Back-end. The inventor of the '506 Patent, in
contrast to other approaches at that time, viewed the problem to be solved as a
networking problem, advancing from the world of physical networks and lower layers of

-5-

the OS! model, such as TCP/IP, to an intelligent overlay service network atop the Web
through a Web server from a PoSvc application on a Web page across an open channel
to the Back-office of a Web merchant.
10.

I have reviewed documents relating to use of Microsoft .net by companies

such as Dell ("New Dell Sales Tool Can Reduce Dell Sales Call Times by 10 Percent or
More, Substantially Improve Profitability, Exhibit B); and Allstate (“Allstate Uses Web
Services To Quickly Create Insurance Policy Management Solution,” Exhibit C and
“Allstate Connects With Countrywide Producer Network In Seven Months Using
Microsoft Visual Studio .Net And The .Net Framework," Exhibit D). It my opinion based
on my knowledge of Web commercial services and my review of documents such as
those at Exhibits B, C, and D, that products such as Dell.com’s Tax and Shipping web
service, Dell.com order status web services, the Allstate Customer Care Center and
accessAllstate.com, Fedex Ship Manager@FedEx.com, Fedex Global Trade Manager,
and Fedex's Web Services i) have achieved commercial success and ii) have achieved
that commercial success because they use concepts covered by the ‘506 patent. For
example, they create objects that are personalized for a user (e.g., a customer) and
that can be routed to an application executing on a second computer system anywhere
on the network.
11.

SNMP is a protocol for monitoring and managing physical devices in a

network. As I understand it, SNMP has nothing to do with Web applications and the ‘506
patent.
12.

Based on the briefing I received, it is therefore my opinion that none of the

references listed in paragraph 5 disclose the invention of the ‘506 patent.

-6-

13.

All statements made herein of my own knowledge are true and all

statements made on information received via briefings are believed to be true.

Signature:

Date: Mav31. 2009
Dr. Jay M. Tenenbaum

• 7*

EXHIBIT A: DR. JAY M. TENENBAUM'S BIO
Jay M. Tenenbaum, Ph.D., Chairman and Chief Scientist, CollabRx:
Jay M. ("Marty") Tenenbaum is the founder, Chairman and Chief Scientist of CollabRx.
Dr. Tenenbaum brings to CollabRx the unique perspective of a world-renowned Internet
commerce pioneer and visionary. He was founder and CEO of Enterprise Integration
Technologies, the first company to conduct a commercial Internet transaction (1992),
secure Web transaction (1993) and Internet auction (1993). In 1994, he founded
CommerceNet to accelerate business use of the Internet. In 1997, he co-founded Veo
Systems, the company that pioneered the use of XML for automating business-tobusiness transactions. Dr. Tenenbaum joined Commerce One in January 1999, when it
acquired Veo Systems. As Chief Scientist, he was instrumental in shaping the
company's business and technology strategies for the Global Trading Web. Post
Commerce One, Dr. Tenenbaum was an officer and director of Webify Solutions, which
was sold to IBM in 2006, and Medstory, which was sold to Microsoft in 2007. Earlier in
his career, Dr. Tenenbaum was a prominent Al researcher and led Al research groups
at SRI International and Schlumberger Ltd. Dr. Tenenbaum is a fellow and former board
member of the American Association for Artificial Intelligence, and a former consulting
professor of Computer Science at Stanford. He currently serves as a director of Efficient
Finance, Patients Like Me, and the Public Library of Science, and is a consulting
professor of Information Technology at Carnegie Mellon's new West Coast campus. Dr.
Tenenbaum holds B.S. and M.S. degrees in Electrical Engineering from MIT, and a
Ph.D. from Stanford.

-8-

CollabRx is slashing the time and cost of developing personalized therapies for those
with rare and neglected diseases by creating virtual biotechs that marry advances in
genomics and computational/systems biology with the efficiencies of web-based
collaborative research. CollabRx

aims to transform the life sciences industry—by

connecting research labs, biotechs, pharmas and their service providers into a
networked ecosystem of interoperable research services that can be rapidly assembled
to develop new therapies with unprecedented efficiencies and economies of scale. Their
mission is finding treatments for rare and orphan diseases within the lifetimes and
collective means of current patients. Today there are over 6,000 such diseases
identified, afflicting over 25 million people. In the coming age of personalized genomic
medicine, every disease will be rare and every individual’s condition unique.

-9-

b\b
20-2196

In The
UNITED STATES COURT OF APPEALS
For The Federal Circuit
Dr. Lakshmi Arunachalam,
a woman,

v.
CITIGROUP INC.,
CITICORP,
CITIBANK N.A.,
Defendants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. 1:14-cv-Q0373-RGA. Judge Richard G. Andrews
Amicus Curiae, Daniel Brune’s
MOTION FOR LEAVE TO FILE AN AMICUS CURIAE BRIEF IN
SUPPORT OF PETITIONER’S PETITION FOR ENBANC REHEARING
November 12,2020

Daniel Brune,
1200 Via Tomaso!
Aptos, CA 95003
Tel: 831.818.5950; Email:danbrune@me.com
Daniel Brune, Amicus Curiae

I

I, Daniel Brune, hereby move this Court for leave to file an amicus curiae
brief in support of Petitioner, Dr. Lakshmi Arunachalam.
A:

Movant’s Interest:

My interest, as a movant, is in the process ofjustice, because it appears that this
essential ingredient is blocked in all of Dr. Lakshmi Arunachalam’s cases. I’m
hopeful that this court may eventually achieve justice, as the Petitioner is otherwise
left with protected rights and no remedy.
(B) The reason whv an amicus curiae brief is desirable and why the matters
asserted are relevant to the disposition of the case:
An amicus curiae brief is desirable, because there has been a denial of due process
by the courts which have failed to perform their ministerial duty to uphold their
solemn oaths of office to defend the Constitution. The courts have dismissed over
100 of Petitioner’s cases without a hearing. It’s been proven that some of the
judges hearing these cases own direct stock in the Defendants. They are effectively
acting as attorneys to the Defendant and ordering the Defendant to go into Default.
It does not appear accidental that this has happened in over 100 cases.
The matters asserted in this case are relevant to the disposition of the case because
the courts, clerks and the USPTO/PTAB failed to perform their ministerial duty to
uphold their solemn oaths of office to enforce the Constitution — the Law of the
Case and Law of the Land. In doing my research, I was the first to discover the
2

Supreme Court precedents that apply to this case and must be enforced by this
Court— Trustees ofDartmouth College v. Woodward, 17 U.S. 518 (1819); Grant
v. Raymond, 31 U.S. 218 (1832); U.S. v. American Bell Telephone Company, 167
U.S. 224 (1897); Ogden v. Saunders, 25 U.S. 213 (1827) and affirmations thereof.
Chief Justice Marshall declared the sanctity of patent grant contracts between the
Federal Government and the inventor, in accordance with the Contract Clause, IP
Clause and Separation of Powers Clause of the Constitution and ruled that any
Orders that failed to uphold the obligation of contracts in accord with the
Constitution are void and unconstitutional. This constitutes denial of due process.
The Courts have oppressed Dr. Arunachalam, who has not had her day in court in
over 100 cases.
CONSENT: Opposed.
CONCLUSION: Wherefore, I request that the Court grant my Motion.
November 12,2020

Respectfully submitted,

Daniel Brune
1200 Via Tomasol
Aptos, CA 95003
Tel. 831-818-5950
Email: danbmne@me.com
Daniel Brune, Amicus Curiae

3

20-2196
In The
UNITED STATES COURT OF APPEALS
For The Federal Circuit
Dr. Lakshmi Arunachalam,
a woman,
v.
CITIGROUP INC.,
CITICORP,
CITIBANK N.A.,
Defenclants-Appellees,
DOES 1-100,
Defendants,

Appeal from the United States District Court for the District of Delaware
in Case No. 1:14-cv-Q0373-RGA. Judge Richard G. Andrews
Amicus Curiae, Daniel Brune’s
AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER’S PETITION
FOR EN BANC REHEARING
November 12,2020

Daniel Brune,
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email:danbrune@me.com
Daniel Brune, Amicus Curiae

4

TABLE OF CONTENTS

6

TABLE OF AUTHORITIES

STATEMENT OF IDENTITY OF THE AMICUS CURIAE, ITS INTEREST IN THE CASE,
AND THE SOURCE OF ITS AUTHORITY TO FILE................... ....................... ........... .7
STATEMENT OF AMICUS CURIAE ON WHO AUTHORED THE BRIEF AND WHO
CONTRIBUTED MONEY TO AUTHOR THE BRIEF............... ...............................

8

AMICUS CURIAE BRIEF

10

CONCLUSION

11

CERTIFICATE OF COMPLIANCE WITH FRAP 32(a)(7)(B)

13

CERTIFICATE OF SERVICE

14

5

TABLE OF AUTHORITIES

Cases:
Grant v. Raymond,
31 U.S. 218 (1832).

3

Ogden v. Saunders,
25 U.S. 213 (1827),

3

Trustees ofDartmouth College v. Woodward,
17 U.S. 518 (1819)............................

3

U.S. v. American Bell Telephone Company,
167 U.S. 224(1897)................ ........

3

6

STATEMENT OF THE IDENTITY OF THE AMICUS CURIAE,
ITS INTEREST IN THE CASE, AND
THE SOURCE OF ITS AUTHORITY TO FILE
I, Daniel Brune, the amicus curiae in this case, live in California at 1200 Via
Tomasol, Aptos, CA 95003.
I am a former U.S. Air Force Major and Senior Pilot who served over 12 years on
active duty. I was awarded two Air Medals for flying potentially hazardous
surveillance missions over the Middle East that were ordered by the Joint Chiefs of
Staff. After an honorable discharge from the U.S. Air Force, I was hired by a
major international airline, retiring in 2017. My service to this country began when
I solemnly swore that I “will support and defend the Constitution of the United
States against all enemies, foreign and domestic; that I will bear true faith and
allegiance to the same; that I take this obligation freely, without any mental
reservation or purpose of evasion; and that I will well and faithfully discharge the
duties of the office on which I am about to enter. So help me God”. To this day, I
still abide by that oath. Likewise, I expect our judges to abide by their solemn oath
to “administer justice without respect to persons, and do equal right to the poor and
to the rich, and that I will faithfully and impartially discharge and perform all the
duties incumbent on me as a judge under the Constitution and laws of the of the
United States. So help me God.” Attorneys also swear an oath to support the
Constitution, which I expect them to honor as well. My question is: why is this not
7

happening in the cases of Dr. Lakshmi Arunachalam? Was she not to expect the
same treatment of other citizens of this country? Was this elderly, disabled, female
of color, who continually works night and day to convince a court to give her the
same considerations as those with more money and power, somehow lesser in
stature or importance in the eyes of the law? I think not, and I am appalled that
this is even an issue. I cannot think of any inventor who has provided tine world
with such a ground-breaking invention - the actual first step to every technological
thing we enjoy today - who has been so ignored by the courts. Primarily, she has
not had her day in court in over 100 cases! She has been denied her due process
and right to trial by jury. I was always under the impression that the courts would
listen to every aspect of a case and not deny the landmark Supreme Court
precedents that have endured for over two hundred years.
AMICUS CURIAE’S INTEREST IN THIS CASE: is in the process of justice,
because it appears that this essential ingredient is blocked in all of Eh*. Lakshmi
Arunachalam’s cases. It is hopeful that this court may eventually achieve justice,
as the Petitioner is left with protected rights and no remedy.
SOURCE OF AMICUS CURIAE*S AUTHORITY TO FILE: I sent an email on
November 12, 2020 to Appellees in this case for consent to file this amicus curiae
brief. Appellees oppose. I further filed a Motion for Leave to file this Amicus
Curiae Brief.
8

STATEMENT OF AMICUS CURIAE ON WHO AUTHORED THE BRIEF
AND WHO CONTRIBUTED MONEY TO AUTHOR THE BRIEF:
1. I, Daniel Brune, declare that I authored this brief.
2. Neither Petitioner or Appellees nor their counsel authored the brief in whole
or in part
3. No party or a party's counsel contributed money that was intended to fund
preparing or submitting the brief; and
4. No person, - other than the amicus curiae, who is an individual, (there are no
members, and no counsel) - contributed money that was intended to fund
preparing or submitting the brief.
November 12,2020

Respectfully submitted,
Daniel Brune,
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email:danbrune@me.com
Daniel Brune, Amicus Curiae

9

AMICUS CURIAE BRIEF IN SUPPORT OF PETITIONER DR. LAKSHMI
ARUNACHALAM’S PETITION FOR EN BANC REHEARING
I, Daniel Brune, an amicus curiae, hereby file this Amicus Curiae Brief in
support of Petitioner, Dr. Lakshmi Arunachalam.
SUMMARY OF ARGUMENT: I served this country because I believe in its
ideals, and the opportunities it makes available to anyone with the knowledge,
skill, and determination to realize their dreams. It should go without saying that
“liberty and justice” is expected to be afforded to all. I have followed Dr.
Arunachalam’s cases because it became increasingly obvious that she somehow
didn’t matter to the judiciary. When I find the number of cases where her due
process has been denied her, some where the judges themselves held some type of
stock ownership in the defendants, I am nearly speechless. How can this occur in
the United States of America with a Constitution that has served us well for so
long? This is a shameful example of how public officials have failed to perform
their ministerial duties, thus denying Petitioner due process by ignoring their
solemn oaths of office to defend the Constitution.
ARGUMENT: Dr. Arunachalam has done everything by the book. The Law of the
Case and the Law of the Land are firmly in her favor. Ignoring Supreme Court
precedents and other similar behavior should have been identified and stopped long
ago, by judges who had earlier knowledge of her cases, their strength, and their
veracity. This brilliant inventor, forced to act as her own attorney due to financial
10

hardships caused by this apparently flawed system, deserves to have her due
process restored.
This is undoubtedly an extraordinary situation, where Dr. Lakshmi Arunachalam,
an American citizen, has continually been denied due process by the courts. Court
officials’ ministerial duties to enforce the Constitution have been ignored in over
100 cases, requiring this Court to reverse the District Court and allow Dr.
Arunachalam to have her day in Court. Numerous legal precedents have also been
ignored, which cannot be allowed to continue in a legal system long considered to
be the best in the world.
CONCLUSION: It should be evident to all who read this brief that there is
something wrong with the egregious treatment endured by Dr. Arunachalam over
the course of her many cases brought before the judiciary. Please give this brilliant,
gifted inventor the chance to have her “day in court” and the opportunity to present
her cases completely - not ignoring the entirety of the record. I believe that if this
examination is made, any reasonable person will see Dr. Arunachalam’s invention
is, fundamentally and foundationally, the technology which we know as the
Internet of Things - Web Applications Displayed on a Web Browser. Without her
technology, literally trillions of dollars of market capitalization would not exist.
Dr. Arunachalam deserves to claim her rightful ownership of what she alone has
created. To ignore this request to restore due process for one inventor will harm
ll

innovation. It will be a signal to other inventors that there is no incentive to put the
time, effort, and money into a potentially lifesaving or life-altering invention, due
to the probability that large corporations with more money, power, and influence
will take it as their own.
November 12,2020

Respectfully submitted,
Daniel Brune
»
1200 Via Tomasol
Aptos, CA 95003
Tel: 831.818.5950; Email: danbrune@me.com
Daniel Brune, Amicus Curiae

n

